Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    ADVERSE EVENTS IN SKILLED
       NURSING FACILITIES:
    NATIONAL INCIDENCE AMONG
     MEDICARE BENEFICIARIES




                    Daniel R. Levinson
                     Inspector General

                      February 2014
                     OEI-06-11-00370
EXECUTIVE SUMMARY: Adverse Events in Skilled Nursing Facilities: National
Incidence Among Medicare Beneficiaries
OEI-06-11-00370

WHY WE DID THIS STUDY
From 2008–2012, we conducted a series of studies about hospital adverse events, defined as harm
resulting from medical care. This work included a Congressionally mandated study to determine a
national incidence rate for adverse events in hospitals. As part of this work, we developed methods to
identify adverse events, determine the extent to which events are preventable, and measure the cost of
events to the Medicare program. This study continues that work by evaluating post-acute care provided
in skilled nursing facilities (SNF). SNF post-acute care is intended to help beneficiaries improve health
and functioning following a hospitalization and is second only to hospital care among inpatient costs to
Medicare. Although various health care stakeholders have in recent years paid substantial attention to
patient safety in hospitals, less is known about resident safety in SNFs.

HOW WE DID THIS STUDY
This study estimates the national incidence rate, preventability, and cost of adverse events in SNFs by
using a two-stage medical record review to identify events for a sample of 653 Medicare beneficiaries
discharged from hospitals to SNFs for post-acute care. Sample beneficiaries had SNF stays of 35 days
or less.

WHAT WE FOUND
An estimated 22 percent of Medicare beneficiaries experienced adverse events during their SNF stays.
An additional 11 percent of Medicare beneficiaries experienced temporary harm events during their
SNF stays. Physician reviewers determined that 59 percent of these adverse events and temporary
harm events were clearly or likely preventable. They attributed much of the preventable harm to
substandard treatment, inadequate resident monitoring, and failure or delay of necessary care. Over
half of the residents who experienced harm returned to a hospital for treatment, with an estimated cost
to Medicare of $208 million in August 2011. This equates to $2.8 billion spent on hospital treatment
for harm caused in SNFs in FY 2011.

WHAT WE RECOMMEND
Because many of the events that we identified were preventable, our study confirms the need and
opportunity for SNFs to significantly reduce the incidence of resident harm events. Therefore, we
recommend that the Agency for Healthcare Research and Quality (AHRQ) and the Centers for
Medicare & Medicaid Services (CMS) raise awareness of nursing home safety and seek to reduce
resident harm through methods used to promote hospital safety efforts. This would include
collaborating to create and promote a list of potential nursing home events—including events we found
that are not commonly associated with SNF care—to help nursing home staff better recognize harm.
CMS should also instruct State agency surveyors to review nursing home practices for identifying and
reducing adverse events. AHRQ and CMS concurred with our recommendations.




       
    TABLE OF CONTENTS
    Objectives ....................................................................................................1 

    Background ..................................................................................................1 

    Methodology ..............................................................................................12 

    Findings......................................................................................................17 

               An estimated 22 percent of Medicare SNF residents
               experienced adverse events during their SNF stays .......................17 

               An additional 11 percent of Medicare SNF residents
               experienced events during their SNF stays that resulted in
               temporary harm ..............................................................................20 

               Physician reviewers determined that 59 percent of adverse                                       

               events and temporary harm events were clearly or likely 

               preventable ....................................................................................22 

               Over half of the residents who experienced harm went to a 

               hospital for treatment, with an estimated cost to Medicare of 

               $208 million in August 2011 .........................................................25 

    Conclusion and Recommendations ............................................................27 

               Agency Comments and Office of Inspector General Response.....30 

    Appendixes ................................................................................................32 

               A: Glossary of Select Medical Terms ...........................................32 

               B: Methodology for Identifying Events and Determining 

               Preventability .................................................................................34 

               C: Development and Description of the SNF Trigger Tool ..........40 

               D: Estimates, Confidence Intervals, and Key Statistics................42 

               E: Rates of Adverse Events and Temporary Harm Events in 

               SNFs by Resident Days and SNF Admissions...............................47 

               F: Adverse Events and Temporary Harm Events ..........................48 

               G: Agency Comments ...................................................................59 



    Acknowledgments......................................................................................65 





 
                   OBJECTIVES
                   1.	 To estimate the national incidence of adverse and temporary harm
                       events for Medicare beneficiaries admitted to skilled nursing facility
                       (SNF) for post-acute care.
                   2.	 To assess the extent to which adverse and temporary harm events were
                       preventable and identify contributing factors.
                   3.	 To estimate the costs associated with adverse and temporary harm
                       events to the Medicare program.

                   BACKGROUND
                   The Office of Inspector General (OIG) conducted a series of studies about
                   adverse events in hospitals from 2008–2012.1 This work included a
                   Congressionally mandated study of adverse event incidence within
                   hospitals.2, 3 OIG found that 27 percent of hospitalized Medicare
                   beneficiaries experienced adverse and temporary harm events, nearly half
                   of the events were preventable, and care associated with events cost the
                   Medicare program an estimated $4.4 billion a year. OIG has identified a
                   number of problems with the quality of care provided in nursing homes,
                   including SNFs. These problems include inadequate discharge planning
                   and lack of compliance with CMS standards regarding the use of atypical
                   antipsychotic drugs.4, 5 These problems pose risks to individuals and
                   increase Medicare costs in the form of hospitalizations.
                   Medicare expenditures for SNF care have more than doubled in the last
                   decade. Medicare paid $12 billion for SNF care in 2000 and $26 billion in
                   2010.6, 7 In fiscal year (FY) 2011, Medicare paid $28.4 billion for SNF



                   1
                     OIG released 11 reports regarding adverse events in hospitals during 2008-2012,
                   including reports about the incidence of adverse events, methods for identifying adverse
                   events, State reporting systems, and public disclosure of event information. All reports
                   are available at http://oig.hhs.gov/reports-and-publications/oei/a.asp#adverse_care.
                   2
                     Tax Relief and Health Care Act of 2006, P.L. 109-432 § 203.
                   3
                     OIG, Adverse Events in Hospitals: National Incidence Among Medicare Beneficiaries,
                   OEI-06-09-00090, November 2010. 

                   4
                     OIG, Skilled Nursing Facilities Often Fail To Meet Care Planning and Discharge 

                   Planning Requirements, OEI-02-09-00201, February 2013. 

                   5
                     OIG, Nursing Facility Assessments and Care Plans for Residents Receiving Atypical
                   Antipsychotic Drugs, OEI-070800151, July 2012. 

                   6
                     U.S. Department of Health and Human Services (HHS), Office of the Actuary, National 

                   Health Statistics Group, SNF Utilization Chart, 2010, p. 50. 

                   7
                     Medicare Payment Advisory Committee (MedPAC), Skilled Nursing Facility Services 

                   Payment System, updated October 2011, p. 1. 




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   1
                   services provided to 1.8 million beneficiaries.8 Post-acute SNF stays—
                   which we define for the purposes of this study as SNF stays that began
                   within 1 day of discharge from a hospital and lasted 35 days or less—
                   constitute 70 percent of all Medicare beneficiary stays in SNFs.9
                   Adverse Events
                   The term “adverse event” describes harm to a patient or resident as a result
                   of medical care.10 An adverse event indicates harm to the patient as a result
                   of medical care, including the failure to provide needed care. Adverse
                   events include medical errors but they may also include more general
                   substandard care that results in patient or resident harm, such as infections
                   caused by the use of contaminated equipment. However, adverse events do
                   not always involve errors, negligence, or poor quality of care and are not
                   always preventable.11,12
                   Post-Acute Care in SNFs
                   The Social Security Act (SSA) §1819(a) defines a “SNF” as a facility
                   engaged primarily in providing skilled nursing care and rehabilitation
                   services for residents who require such care because of injury, disability,
                   or illness. Although the term “SNF” refers to a provider that meets the
                   Medicare Part A coverage requirements described above, 90 percent of
                   SNFs are dually certified as both SNFs and nursing homes (i.e., long-term
                   care providers).13 In 2011, about 20 percent of all hospitalized Medicare
                   beneficiaries went to one of the 15,207 SNFs for post-acute care following
                   their hospital stays.14 Medicare Part A pays for up to 100 days of care in
                   SNFs per benefit period.15, 16 Medicare beneficiaries are eligible for SNF
                   stays following a hospital stay of at least 3 days and when a medical


                   8
                     Centers for Medicare & Medicaid Services (CMS), 2011 CMS Statistics, Tables III.6
                   and IV.6a. Accessed at www.cms.gov/ResearchGenInfo/02_CMSStatistics.asp on
                   April 9, 2012.
                   9
                     OIG analysis of 2010 Medicare SNF claims, Standard Analytical File (SAF).
                   10
                      See Appendix A for a definition of “adverse events” as well as a list of select clinical 

                   terms and conditions.

                   11
                      R.M. Wachter, Understanding Patient Safety, McGraw-Hill, 2008, p. 17. 

                   12
                      OIG, Adverse Events in Hospitals: National Incidence Among Medicare Beneficiaries, 

                   OEI-06-09-00090, November 2010. 

                   13
                      MedPAC, Report to the Congress: Medicare Payment Policy, Skilled Nursing Facility 

                   Services, March 2013, p. 161. 

                   14
                      Ibid. 

                   15
                      A “benefit period” is a period of consecutive days during which medical benefits for 

                   covered services, with certain specified maximum limitations, are available to the 

                   beneficiary. CMS, Medicare Benefit Policy Manual: Duration of Covered Inpatient

                   Services, Chapter 3.

                   16
                      CMS, Medicare Benefit Policy Manual: Coverage of Extended Care (SNF) Services
                   Under Hospital Insurance, Chapter 8.



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   2
                   professional verifies the need for nursing care and rehabilitation related to
                   the hospitalization.17
                   In 2010, MedPAC described Medicare beneficiaries in SNFs as more
                   likely than other Medicare beneficiaries to report poor health status, have
                   multiple limitations in their activities of daily living, live in an institution,
                   and be disabled.18 Examples of SNF residents include those recovering
                   from surgical procedures performed in hospitals (e.g., hip or knee
                   replacements) or recovering from acute medical conditions (e.g., stroke,
                   pneumonia).19 Examples of care provided to SNF residents include the
                   development, management, and evaluation of a resident care plan;
                   physical therapy; administration of intravenous feedings; medication
                   management; and wound care.
                   Medicare Payment to SNFs. Medicare payment to SNFs is determined by
                   rate groups based on the level of care provided and is adjusted for
                   geographic and resident population differences. Each of these 66 rate
                   groups—referred to as “resource utilization groups,” or “RUGs”—in
                   8 categories have weights for nursing and therapy care that are applied to
                   the base rates.20 Assignment to a rate group is based on the number of
                   minutes of therapy that the resident requires, the need for certain services
                   (such as respiratory therapy), the presence of certain conditions (such as
                   dehydration), and an index based on the ability of the resident to
                   independently perform four activities of daily living (i.e., eating, toileting,
                   bed mobility, and transferring).21
                   Federal Oversight of Nursing Homes
                   CMS oversees nursing home compliance with Federal standards through
                   State survey agencies, which monitor SNFs and enforce penalties for
                   substandard quality of care.22, 23 Surveys may include medical record
                   review and audits of resident assessments or plans of care.24 CMS enters
                   into agreements with State survey agencies to conduct onsite surveys of




                   17
                      Ibid. 

                   18
                      MedPAC, op. cit., p. 162-163. 

                   19
                      MedPAC, op. cit., p. 161. 

                   20
                      CMS, Resident Assessment Instrument (RAI) Version 3.0 Manual (v. 1.07), ch. 6, § 6.3. 

                   21
                      Ibid, ch. 6, § 6.6.

                   22
                      42 CFR Part 488, Subparts E and F. 

                   23
                      CMS, State Operations Manual, Appendix PP, Guidance to Surveyors for Long Term 

                   Care Facilities, Tag F309.

                   24
                      42 CFR §§ 488.305(a) and 488.310(b).




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   3
                   each nursing home to certify compliance with Federal requirements.25
                   When surveyors identify noncompliance with Federal requirements, CMS
                   requires nursing homes to submit plans of correction and to correct the
                   problems. If nursing homes do not correct the problems, CMS may take
                   enforcement actions, including imposing civil monetary penalties and
                   denying payment for new admissions of Medicare residents.26
                   CMS requirements regarding resident safety in nursing homes include
                   both broad, facility-wide mandates (such as staff training) and
                   requirements specific to certain practices (such as treatment of pressure
                   ulcers). To establish and oversee quality and safety-related practices,
                   CMS requires that nursing homes establish and maintain a Quality
                   Assurance and Assessment (QAA) committee composed of a physician
                   designated by the facility, director of nursing, and other staff members as
                   determined by the facility.27 Tasks of the QAA include identifying and
                   addressing quality and safety problems. To evaluate nursing home quality
                   and safety practices, CMS instructs surveyors to review QAA committee
                   activities and interview committee members as a part of onsite reviews.28
                   Noncompliance with the QAA requirements can result in surveyors’ citing
                   a deficiency specific to the QAA process.29
                   Additionally, CMS requires that Medicare- and Medicaid-certified nursing
                   homes report alleged instances of mistreatment, neglect, or abuse to State
                   survey agencies.30 These instances are to include injuries of unknown
                   source as well as misappropriation of resident property. When allegations
                   of such instances are made, the nursing homes must take measures to
                   prevent further potential abuse, investigate the allegations, and establish a
                   corrective action plan if warranted.31 Federal regulation defines abuse as
                   “willful infliction of injury” and neglect as “failure to provide goods and
                   services necessary to avoid harm.”32 Noncompliance with the reporting




                   25
                      42 CFR § 488.10 and CMS, Survey and Certification: General Information, April, 11, 

                   2013. Accessed at http://www.cms.gov/Medicare/Provider-Enrollment-and-
                   Certification/SurveyCertificationGenInfo/index.html?redirect=/surveycertificationgeninf

                   o/ on May 15, 2013. 

                   26
                      42 CFR §§ 488.402(d), 488.408, and 488.417. 

                   27
                      42 CFR §§ 483.75(o).

                   28
                      CMS, State Operations Manual, Appendix PP, Guidance to Surveyors for Long Term

                   Care Facilities, Tag F520. 

                   29
                      Ibid. 

                   30
                      42 CFR §§ 483.13(c)(2).

                   31
                      42 CFR §§ 483.13(c)(3) and (4).

                   32
                      42 CFR §§ 488.301.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   4
                   requirements results in a deficiency citation specific to the reporting
                   process.33
                   Nursing Home Quality Measures. Medicare- and Medicaid-certified
                   nursing homes routinely collect resident assessment data at specific
                   intervals during a nursing home stay and maintain the assessment results
                   in the Minimum Data Set (MDS).34 CMS converts portions of the MDS
                   data into 18 quality measures (QMs), which indicate how well nursing
                   homes care for residents.35 Examples of QMs include the percentage of
                   residents who develop pressure ulcers, the percentage who develop urinary
                   tract infections, and the percentage who experience falls with injury.36
                   CMS provides QMs to SNFs for use in quality improvement efforts.
                   CMS publicly reports nursing home QMs through the Five-Star Quality
                   Rating System and Nursing Home Compare. CMS gives each Medicare-
                   and Medicaid-certified nursing home an overall rating between one and
                   five stars. A rating of one star indicates that a nursing home is “much
                   below average” in terms of quality, and a rating of five stars indicates that
                   a nursing home is “much above average.”37 CMS bases the overall
                   ratings on the nursing homes’ performance in three areas: performance on
                   inspection surveys (survey metric), QMs (quality metric), and staffing
                   (staffing metric).
                   Adverse Event Lists and Reporting. To date, there is no Federal
                   requirement that SNFs report adverse events beyond the requirements to
                   report instances of mistreatment, neglect or abuse and the discrete
                   potential events described in the QMs (e.g., pressure ulcers, falls).
                   Additionally, there are no Federal standards that require States to operate
                   adverse event reporting systems. To help define potential events for
                   reporting, the National Quality Forum (NQF) issued guidance in 2011
                   expanding its list of hospital Serious Reportable Events (SRE) to SNFs



                   33
                      CMS, State Operations Manual, Appendix PP, Guidance to Surveyors for Long Term
                   Care Facilities, Tags F223-226.
                   34
                      CMS, RAI Version 3.0 Manual (v. 1.07), ch. 1, § 1.2, and ch. 2, § 2.6.
                   35
                      RTI [Research Triangle Institute] International, Nursing Home MDS 3.0 Quality
                   Measures: Final Analytic Report (Sept. 2012), §§ 1.1 and 1.2.
                   36
                      RTI, MDS 3.0 Quality Measures User’s Manual (v. 6.0). Accessed at
                   http://www.cms.gov/Medicare/Quality-Initiatives-Patient-Assessment-
                   Instruments/NursingHomeQualityInits/Downloads/MDS-30-QM-Users-Manual-V60.pdf
                   on February 19, 2013. 

                   37
                      CMS, Consumer Fact Sheet, December 2008. Accessed at 

                   http://www.cms.gov/Medicare/Provider-Enrollment-and-
                   Certification/CertificationandComplianc/Downloads/consumerfactsheet.pdf on October 

                   4, 2013. 




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   5
                   and other health care settings.38 The NQF SRE list identifies adverse
                   events that are “serious, largely preventable, and of concern to both the
                   public and health care providers.”39 The 2011 updated SRE list includes
                   24 events applicable to SNF care. These 24 events largely represent only
                   the most egregious potential events such as a patient death or serious
                   injury associated with the use of contaminated drugs or devices.
                   Resident Safety in Nursing Homes
                   Previous studies of adverse events in nursing homes have focused largely
                   on medication-related adverse events—which are a subset of all adverse
                   events—among the entire nursing home population. A 2006 review of
                   seven studies measuring the incidence of medication-related adverse
                   events in nursing homes revealed that such events are common and that as
                   many as half of the events could have been prevented.40
                   Research also indicates that patient and resident transfers between
                   hospitals and nursing homes can pose problems for medically fragile
                   individuals.41 Many transitions from hospitals to post-acute care occur in a
                   hurried manner and have limited prior planning, occur during nights and
                   on weekends when nursing homes may have fewer and less experienced
                   staff, involve clinicians who may not have a relationship with the
                   residents, and happen too quickly for nursing home staff to respond well
                   and in a timely manner.42 Similarly, hospitalizations of nursing home
                   residents increase the risk that residents will experience harm and other
                   negative care outcomes.43, 44 The impact on residents during
                   hospitalizations can include disruption of their care plans and greater



                   38
                      The NQF is a consensus-building organization focused on health care quality and funded in
                   part by grants from HHS. “NQF Mandate and Call to Action,” About NQF, updated January
                   2012. Accessed at http://www.qualityforum.org/About_NQF/About_NQF.aspx on March 23,
                   2012.
                   39
                      NQF, “National Voluntary Consensus Standards for Serious Reportable Events in
                   Healthcare,” Press Release, August 2011.

                   40
                      S.M. Handler, “Epidemiology of Medication-Related Adverse Events in Nursing 

                   Homes,” The American Journal of Geriatric Pharmacotherapy, 4, 3, 2006, pp. 264-272. 

                   41
                      Congressional Research Service, “Medicare Hospital Readmissions: Issues, Policy
                   Options and PPACA,” Fact Sheet, September 21, 2010.

                   42
                      E. Coleman and R.A. Berenson, “Lost in Transition: Challenges and Opportunities for 

                   Improving the Quality of Transitional Care,” American College of Physicians, 141, 7,

                   2004, p. 533. 

                   43
                      Assistant Secretary for Planning and Evaluation (ASPE), Hospitalizations of Nursing
                   Home Residents: Background and Options, June 2011, p. 1.

                   44
                      J.G. Ouslander, “Reducing Potentially Avoidable Hospitalizations of Nursing Home

                   Residents: Results of a Pilot Quality Improvement Project,” Journal of the American 

                   Medical Directors Association, 10, 9, 2009, p. 645. 




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   6
                   vulnerability for disorientation, stress, and adverse events.45
                   Hospitalization rates are seen as a measure of nursing home quality and
                   safety and have received attention from OIG and other stakeholders.46, 47
                   Federal Efforts To Improve the Quality of Post-Acute Care
                   In addition to CMS, other Federal agencies share responsibility for ensuring
                   health care quality and safety in nursing homes. For example, the Agency
                   for Healthcare Research and Quality (AHRQ) in HHS leads efforts related to
                   research and learning. The Center for Quality Improvement and Patient
                   Safety (CQuIPS) within AHRQ provides national leadership in improving
                   health care safety. CQuIPS objectives are to develop a solid evidence base,
                   design useful tools, and disseminate information for implementation to all
                   health care facilities.48 AHRQ is also required by statute to produce an
                   annual report to Congress about health care quality.49
                   Patient Safety Organizations. AHRQ maintains responsibility for
                   implementing and overseeing the certification process for Patient Safety
                   Organizations (PSO) created by the Patient Safety and Quality
                   Improvement Act of 2005 (PSQIA).50 PSOs are intended to receive
                   adverse event reports from health care facilities and then forward the
                   information to a national database from which CQuIPS will analyze
                   aggregated data. PSQIA also provides Federal privilege and
                   confidentiality protections for information reported to PSOs.51 These
                   protections prohibit other entities from accessing adverse event reports,
                   including State survey agencies, with providers facing possible penalties
                   enforced by the HHS Office of Civil Rights. Officials at AHRQ and CMS
                   indicated in interviews with OIG staff that the PSQIA confidentiality
                   provision may be in conflict with CMS compliance requirements that
                   allow surveyors access to facility QAA actions and reports.
                   To facilitate reporting, AHRQ developed a set of event definitions and
                   reporting tools—the Common Formats—which PSOs can choose to use

                   45
                      E. Hutt, “Precipitants of Emergency Room Visits and Acute Hospitalization in
                   Short-Stay Medicare Nursing Home Residents,” Journal of the American Geriatrics
                   Society, 50, 2, 2002, 223–224.
                   46
                      OIG, Medicare Nursing Home Resident Hospitalization Rates Merit Additional
                   Monitoring, OEI-06-11-00040, November 2013.
                   47
                      ASPE, op. cit., pp. 8–12. 

                   48
                      AHRQ, Advancing Patient Safety: A Decade of Evidence, Design, and

                   Implementation, AHRQ Publication No. 09(10)-0084, November 2009. 

                   49
                      Public Health Service Act (PHSA), § 913, 42 U.S.C. § 299b-2. 

                   50
                      The Secretary of HHS delegated authority to AHRQ to certify entities as PSOs, as well 

                   as to fulfill other requirements of the PSQIA. P.L. 109-41 § 2, PHSA, § 924, 42 U.S.C. §

                   299b-24; 73 Fed. Reg. 70732 (Nov. 21, 2008). 

                   51
                      P.L. 109-41 § 2, PHSA, § 924, 42 U.S.C. § 299b-24.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   7
                   and which contain data elements that AHRQ determined are important for
                   a complete and useful adverse event report.52 AHRQ designed the
                   Common Formats for both the hospital and SNF settings.53 The Patient
                   Protection and Affordable Care Act (ACA) provides that, by January 1,
                   2015, health plans that participate in insurance exchanges may not
                   contract with a hospital of 50 beds or more unless that hospital reports
                   patient safety data to a PSO.54 Currently, no such requirement exists for
                   SNFs.
                   The ACA also mandated HHS to establish a national strategy for quality
                   improvement in health care,55 including patient and resident safety,56 and
                   increased funding to AHRQ for research grants to explore best practices.57
                   As part of this strategy, CMS introduced in 2011 its Partnership for
                   Patients, a public/private collaboration to improve health care quality and
                   safety, specifically including transitions from acute to post-acute care.58
                   HHS also developed the Measure Applications Partnership (MAP), a
                   public/private partnership facilitated by NQF and designed to provide
                   CMS and other agencies within HHS with input regarding health care
                   performance measurement, in order to satisfy a mandate in the ACA to
                   seek multi-stakeholder group input.59 MAP recently released a draft set of
                   core measure concepts to use in assessing post-acute care by facilities such
                   as SNFs, identifying both care coordination and safety as two of six
                   high-leverage priority areas.60
                   The ACA also requires nursing homes to develop and operate Quality
                   Assurance and Performance Improvement (QAPI) programs.61 In June
                   2013, CMS released guidance to nursing homes regarding developing and




                   52
                      AHRQ, Common Formats for Patient Safety Data Collection and Event Reporting, 

                   Notice of Availability: Common Formats Version 1.0, September 2, 2009.

                   53
                      AHRQ, Users Guide: AHRQ Common Formats for Skilled Nursing Facilities Version

                   0.1 Beta Release, February 2011.

                   54
                      P.L. 111-148 § 1311, (h)(1)(A), i-ii. 

                   55
                      P.L. 111-148 § 3011, PHSA, § 399HH, 42 U.S.C. § 280j. 

                   56
                      ACA, § 3011, PHSA, § 399HH(a)(2)(B)(vii), 42 U.S.C. § 280j(a)(2)(B)(vii). 

                   57
                      ACA, § 3501, PHSA, §§ 933 and 934, 42 U.S.C. §§ 299b-33 and 299b-34.

                   58
                      CMS, Partnership for Patients: A Common Commitment, April 2011. Accessed at 

                   http://www.healthcare.gov/compare/partnership-for-patients/about/index.html on 

                   March 7, 2012. 

                   59
                      ACA § 3014. 

                   60
                      NQF, Input on Measures Under Consideration by HHS for 2012 Rulemaking: Final 

                   Report, Measure Applications Partnership, February 2012, pp. 99-100.

                   61
                      ACA, 6102, Social Security Act, § 1128I(c), 42 U.S.C. § 1320a-7j(c).



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   8
                   maintaining QAPI programs.62 This guidance states that QAPI programs
                   are to serve as comprehensive plans to both improve routine facility
                   practices and to conduct periodic, targeted performance improvement
                   projects. It further states that facilities are to continue working within the
                   prior Federal requirements, relying on QAA committees to implement and
                   oversee QAPI activities.63 CMS provides QAPI tools for identifying and
                   addressing quality and safety programs, such as guidance for developing a
                   facility mission statement and establishing safety goals.64
                   CMS, in its 2012 Nursing Home Action Plan, described several initiatives
                   intended to improve resident safety and quality in nursing homes.65 These
                   initiatives involve many of CMS’ nursing home oversight and payment
                   tools. Action Plan initiatives include multiple refinements to the existing
                   survey and certification process, improvements in data reported through
                   the Five-Star Quality Rating System, demonstration projects designed to
                   test the effect of payment incentives on nursing home performance and
                   quality, and plans to collaborate with Quality Improvement Organizations
                   and State survey agencies.
                   Measuring Health Care Safety
                   Research and policy to improve health care safety and reduce adverse
                   events often focus on identifying systemic problems that lead to harm and
                   avoid labeling the event as an outcome of negligence or poor quality. As
                   part of this effort to identify problems, researchers and health care entities
                   may adopt different standards for distinguishing between degrees of harm
                   in defining what constitutes an adverse event. Thus, entities tracking
                   events may find different results depending on the tools used to identify
                   and classify events. For example, the National Coordinating Council for
                   Medication Errors Reporting and Prevention (NCC MERP) Index can be
                   used to classify adverse events by level of harm. The NCC MERP Index
                   was initially developed to categorize the effect of medication errors. The
                   index includes categories for circumstances that presented a risk but did




                   62
                      CMS, QAPI at a Glance: A Step by Step Guide to Implementing QAPI in Your Nursing

                   Home. Accessed at http://www.cms.gov/Medicare/Provider-Enrollment-and-

                   Certification/QAPI/Downloads/QAPIAtaGlance.pdf on October 2, 2013. 

                   63
                      Ibid. 

                   64
                      CMS, Guide for Development Purpose, Guiding Principles, and Scope for QAPI,

                   June 7, 2013. Accessed at http://www.cms.gov/Medicare/Provider-Enrollment-and-

                   Certification/QAPI/Downloads/QAPIPurpose.pdf on September 5, 2013.

                   65
                      CMS, 2012 Nursing Home Action Plan, 2012. 




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   9
                   not cause harm (“near misses”) and those that did cause harm.66
                   Table 1 shows the NCC MERP Index for Categorizing Errors.
                  Table 1: The NCC MERP Index for Categorizing Errors
                    Level    Description                                                                                     Event
                    A         Circumstances or events occurred that had the capacity to cause error.
                    B         Error occurred but did not reach the patient or resident.                            Harm does not
                              Error occurred that reached the patient or resident but did not cause                 reach patient
                    C
                              patient or resident harm.                                                               or resident
                              Error occurred that reached the patient or resident and required monitoring
                    D
                              to preclude harm or confirm that it caused no harm.
                              Error occurred that may have contributed to or resulted in temporary harm
                    E
                              and required intervention.
                              Error occurred that may have contributed to or resulted in harm and
                    F
                              required an initial or prolonged facility stay.
                                                                                                                    Harm reaches
                              Error occurred that contributed to or resulted in permanent patient or
                    G                                                                                                   patient or
                              resident harm.
                                                                                                                         resident
                              Error occurred that required intervention to sustain the patient or resident’s
                    H
                              life.
                              Error occurred that may have contributed to or resulted in patient or
                    I
                              resident death.
                   Source: NCC MERP Index for Categorizing Errors, Medication Errors Council Revises and Expands Index for
                   Categorizing Errors: Definitions of Medication Errors Broadened, Press Release, June 12, 2001.

                   Researchers have also used the NCC MERP index for measuring and
                   distinguishing other types of adverse events. The Institute for Healthcare
                   Improvement (IHI), a nonprofit organization that advises health care
                   providers regarding health care quality, uses a modified version of the
                   NCC MERP index to measure the degree of harm, regardless of whether
                   the harm was the result of error.67
                   Identifying Adverse Events. Retrospective medical record review is often
                   considered the most definitive method for detecting adverse events,
                   because it can provide detail about both the adverse event and the
                   circumstances, such as the patient’s or resident’s condition prior to and
                   following the event.68 Research indicates that identifying adverse events
                   retrospectively is a complex and difficult task, requiring extensive clinical




                   66
                      AHRQ designed an alternative harm scale for use with the Common Formats.
                   According to AHRQ, the AHRQ Harm Scale differs from the NCC MERP harm scale in
                   that it is intended to measure the harm experienced by the beneficiary after the harm is
                   ameliorated. AHRQ, Users Guide: Version 1.2 AHRQ Common Formats for Patient
                   Safety Organizations, 2013.
                   67
                      F.A. Griffin and R.K. Resar, IHI Global Trigger Tool for Measuring Adverse Events,
                   Institute for Healthcare Improvement Innovation Series, 2009, pp. 4–5.
                   68
                      E.J. Thomas, D.M. Studdert, and T.A. Brennan, “The Reliability of Medical Record
                   Review for Estimating Adverse Event Rates,” Annals of Internal Medicine, 136, 11,
                   2002, pp. 812–816.



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)              10
                   knowledge, adequate documentation, and subjective judgment on the part
                   of the researcher.69
                   Medical record reviews can be costly, requiring hospitals to make records
                   available and substantial effort by physicians or other clinicians to review
                   them. To limit physician medical record reviews to identify adverse events,
                   cases can be screened to identify potential events using other methods, such
                   as nurse reviews of medical records and analysis of Medicare hospitalization
                   claims. One such method, the IHI’s Global Trigger Tool (GTT), uses a
                   review of hospital inpatient medical records to identify “triggers” that could
                   signal patient harm and indicate potential adverse events. A trigger could be
                   a description of the harm or a reference that indicates potential harm, such as
                   a return to surgery. The IHI GTT review is designed to be completed by
                   nurse reviewers with the results then confirmed or refuted by a physician.
                   Another example of a trigger tool is the Nursing Home Adverse Drug Event
                   Trigger Tool.70 Unlike the IHI GTT, which focuses on all aspects of patient
                   care in the hospital setting (e.g., medication, surgery, patient care), the
                   Nursing Home Adverse Drug Event Trigger Tool is focused on medication-
                   related adverse events in the nursing home or other long-term care settings.
                   Determining Preventability. To provide additional context regarding adverse
                   events, researchers have assessed whether events were preventable and
                   described the factors contributing to the events. In a 2010 OIG report about
                   adverse events in hospitals, physician reviewers determined that 44 percent
                   of events were preventable.71 A 2008 review of eight academic studies found
                   a similar result, with an average of 44 percent of events judged preventable.72
                   A 2010 study that examined the incidence of adverse events in 10 North
                   Carolina hospitals described 63 percent of identified events as preventable.73
                   Assessing preventability can provide greater understanding of the causes of
                   events, which can be used to develop actionable solutions to the systemic
                   problems that lead to events.




                   69
                      E.J. Thomas and L.A. Peterson, “Measuring Errors and Adverse Events in Health
                   Care,” Journal of General Internal Medicine, 18, 1, 2003, pp. 61–67.
                   70
                      S.M. Handler, “Detecting Adverse Drug Events Using a Nursing Home Specific
                   Trigger Tool,” Annals of Longterm Care, 18, 5, 2010, pp. 17-22.
                   71
                      OIG, Adverse Events in Hospitals: National Incidence Among Medicare Beneficiaries,
                   OEI-06-09-00090, November 2010, p. 24. 

                   72
                      E.N. De Vries, “The Incidence and Nature of Hospital Adverse Events: A Systematic 

                   Review,” British Medical Journal – Quality and Safety in Health Care, 17, 3, 2008: pp. 

                   216–23.

                   73
                      C.P. Landrigan, “Temporal trends in rates of patient harm resulting from medical care,” 

                   New England Journal of Medicine, 363, 22, 2010: 2124–34. 




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   11
                   METHODOLOGY
                   This report estimates the national incidence of adverse events that occurred
                   in SNFs using a representative sample of Medicare SNF residents. Our
                   study population includes all Medicare beneficiaries who had Medicare-paid
                   SNF stays that met each of the following criteria:
                        	 began within 1 day of a beneficiary’s discharge from a hospital,
                        	 had a length of stay of 35 days or less (rather than the maximum
                           100 days allowed by Medicare),74 and
                        	 ended in August 2011.
                   We included in the estimated national incidence rates all SNF resident harm
                   events that occurred during the SNF stays, regardless of whether they were
                   preventable. All SNF harm described in this report is attributable to the care
                   provided in the SNF. Additionally, this report provides a physician
                   assessment of the extent to which the identified events were preventable and
                   an analysis of billing data to estimate the cost to the Medicare program for
                   inpatient hospital stays and emergency room visits resulting from
                   preventable and not preventable adverse events. This study largely follows
                   the methodology used by OIG in the November 2010 report, which
                   estimated the national incidence rate, preventability, and cost of adverse
                   events in hospitals.75
                   Sample Selection and Profile
                   Using Medicare claims data from the National Claims History (NCH) file,
                   we selected a simple random sample of 655 Medicare beneficiaries out of
                   the 100,771 beneficiaries who had SNF stays that met our 3 sample
                   criteria. We excluded 2 beneficiaries because the SNFs they resided in
                   were under OIG investigation, which resulted in a review of 653
                   beneficiaries’ SNF stays. Thirty-seven sample beneficiaries had more than
                   1 SNF stay during August (35 had 2 stays and 2 had 3 stays). Combined,
                   reviewed sample beneficiaries had 692 SNF stays that ended in August
                   2011; the length of stay averaged 15.5 days.
                   The majority (70 percent) of sample beneficiaries entered SNFs following
                   hospital stays described by CMS as medical, or nonsurgical, stays. The
                   most frequent medical conditions treated in these stays were septicemia

                   74
                      In consultation with CMS, physician reviewers and geriatrician consultants, we limited
                   our study population to only those stays that were 35 days or less because it allowed for
                   measurement of harm in the post-acute care period. Additionally, stays that ended on the
                   35th day or earlier constituted the majority—approximately 70 percent—of SNF stays in
                   FY 2011.
                   75
                      OIG, op. cit., pp. 8-11.



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   12
                   and urinary tract infections.76 The remaining 30 percent of beneficiaries
                   entered SNFs following surgical hospital stays (most often for hip or knee
                   joint replacements).
                   Data Collection
                   We requested complete medical records for the sampled beneficiaries’
                   SNF stays. We received 100 percent of the SNF records we requested.77
                   As part of this request, we asked the SNFs to provide the discharge
                   summaries and other key medical record documents from the hospital
                   stays that preceded the post-acute stays. In cases when the SNFs were not
                   able to provide the hospital records, we requested the records directly from
                   the hospitals. We also requested discharge summaries and other key
                   medical record documents for any hospital stay that occurred during the
                   SNF stay or within 14 days of a beneficiary’s discharge from the SNF stay.
                   In addition to collecting the medical record documentation, we collected
                   billing data for the SNF stays and any associated hospital stays. We
                   collected MDS assessment data associated with the sampled beneficiaries’
                   Part A SNF stays. We collected hospital inpatient and outpatient claim data
                   associated with sample beneficiaries’ qualifying inpatient stays—as well as
                   for any subsequent inpatient or emergency room visits—from the National
                   Claims History file.
                   Identification of Adverse and Temporary Harm Events. We conducted a two-
                   stage medical record review to identify adverse and temporary harm events.78
                   The first stage was a screening process designed to identify sample
                   beneficiaries who may have experienced an adverse or temporary harm
                   event during their stay(s). We asked one nurse practitioner and four nurses
                   (referred to as “screeners”) with IHI GTT or SNF experience to review the
                   medical records and administrative data associated with the sample
                   beneficiaries’ SNF stays and hospital stays. They reviewed the medical
                   records and administrative data of the hospital stays for evidence of harm
                   that occurred during the SNF stays. They used the OIG-developed SNF
                   trigger tool to facilitate and standardize their individual reviews of the SNF
                   records.79 The contracted screeners reviewed the records independently and
                   each record was reviewed by one screener. Prior to beginning their reviews,

                   76
                      Source: OIG analysis of SNF stays for 653 Medicare beneficiaries discharged in
                   August 2011. 

                   77
                      We did not request records for the two stays that occurred in SNFs under OIG 

                   investigation.

                   78
                      See Appendix B for an expanded description of the methodology used to identify
                   adverse and temporary harm events. 

                   79
                      See Appendix C for description of the development process and a list of SNF Trigger 

                   Tool triggers. 




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   13
                   we provided training to all screeners on the use of the SNF Trigger Tool.
                   The screeners “flagged” the records of 262 beneficiaries for the second stage
                   of the review. In addition, we randomly selected 100 beneficiaries from 391
                   beneficiaries who were not flagged during the screener review to determine
                   a screener false-negative rate (i.e., the rate at which the screeners incorrectly
                   determined that a beneficiary did not experience an adverse or temporary
                   harm event). See Appendix B for a detailed description of these additional
                   reviews.
                   The second stage of the medical record review consisted of reviews by five
                   contracted physicians of the medical records of the 262 beneficiaries flagged
                   by the screening process and the records of the 100 beneficiaries selected for
                   the screener false-negative rate review. The physicians reviewed the records
                   independently and each record was reviewed by one physician reviewer. To
                   describe the harm caused by the events, the reviewers used a modified
                   version of the NCC MERP harm scale:
                        	 F level—Harm occurred that prolonged the SNF stay or led to a
                           transfer to a different SNF or other post-acute facility and/or
                           hospitalization (i.e., admission to a hospital observation unit,
                           emergency department, or inpatient care).
                        	 G level—Harm occurred that contributed to or resulted in permanent
                           resident harm.
                        	 H level—Harm occurred that required intervention to sustain the
                           resident’s life.
                        	 I Level—Harm occurred that may have contributed to or resulted in
                           resident death.
                   The physician panel included four physicians who participated in the
                   2011 OIG study of hospital events (specialists in cardiology, infectious
                   disease, internal medicine, and orthopedics) and one geriatrician with
                   experience as a Medical Director in SNFs. To ensure consistency across
                   physician reviewers, we facilitated weekly conference calls during which
                   physician reviewers discussed cases that either were complex or had possible
                   implications for other cases. Additionally, a contracted geriatric psychiatrist
                   provided a secondary review of select events that involved psychotropic
                   medications, including falls associated with medications.
                   Data Analysis
                   We performed analysis and generated estimates about adverse and temporary
                   harm events in three categories: national incidence of events, preventability
                   of events, and Medicare cost associated with events. We included the results
                   of the screener false-negative rate review in all of our analyses using



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   14
                   appropriate methodology. For estimates and corresponding 95-percent
                   confidence intervals, see Appendix D.
                   Adverse Event Incidence Analysis. We calculated the estimated national
                   adverse event incidence rate as the percentage of Medicare SNF residents
                   who experienced at least one adverse event. We defined adverse events as
                   events that resulted in one of the four most serious categories on a modified
                   version of the NCC MERP index described above (classified on the index as
                   F-I). We projected incidence rates to the population of Medicare
                   beneficiaries who had SNF stays that began within 1 day of a beneficiary’s
                   discharge from a hospital, had a length of stay of 35 days or less, and ended
                   in August 2011.
                   The overall adverse event incidence rate does not include events that
                   physician reviewers identified as temporary harm events, defined as events
                   that required intervention but did not cause lasting harm (classified as
                   E level harm on the NCC MERP index). We excluded these temporary harm
                   events from our overall rate because we determined, in consultation with
                   physician reviewers, that the effect of these events was not comparable to
                   those of the more serious events (i.e., F level through I level events). We
                   calculated a separate incidence rate for Medicare SNF residents who
                   experienced only temporary harm events.
                   For beneficiaries in our sample, we also calculated 2 ratios of adverse event
                   incidence density: events per 1,000 resident days and events per 100 SNF
                   admissions. These measures are commonly used by providers and medical
                   professionals.80 For the resulting metrics and an explanation of the methods
                   used, see Appendix E.
                   Preventability Analysis. The findings related to preventability are based on
                   determinations made by the physician reviewers for each adverse event and
                   temporary harm event. We calculated percentages for each preventability
                   classification and for different types of events, the results of which are
                   projectable to the population. We also conducted statistical tests to identify
                   differences in preventability rates between adverse events and temporary
                   harm events and across various categories of adverse events, such as
                   medication-related and infection-related events.
                   Medicare Cost Analysis. We estimated the cost to Medicare resulting from
                   inpatient hospital stays and emergency room visits. To determine how much
                   Medicare paid for services associated with events, we asked physician
                   reviewers to indicate whether the SNF residents were hospitalized because

                   80
                     K.M. Arias, Outbreak Investigation, Prevention, and Control in Health Care Settings,
                   Second Edition, Jones and Bartlett Publishers, 2009, pp. 330–331.



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   15
                   of identified adverse events. To assist them in their determinations, we
                   provided the physicians with summaries of the hospital claims associated
                   with each sample beneficiary. These summaries provided information on the
                   hospitalizations that occurred during the SNF stays or within 14 days of the
                   sample beneficiaries’ discharges from the SNFs and the diagnoses codes
                   associated with the hospitalizations.
                   Using hospital claims data from the NCH file and the results of the
                   physicians’ medical record reviews, we identified the inpatient hospital stay
                   or emergency room visit claims associated with the sample beneficiaries’
                   adverse events. We did this by matching the discharge date of the SNF stay
                   with the admission date of the hospital stay or emergency room visit.81 We
                   attributed the entire cost of the inpatient hospital stay or emergency room
                   visit to the adverse event. We summed the reimbursements paid by
                   Medicare for the hospital and emergency room claims to determine the total
                   Medicare paid for the hospitalizations.
                   Limitations
                   The methodology presents three specific limitations. First, it is unlikely that
                   the study identified all adverse and temporary harm events within the sample
                   of SNF residents. To the extent that the study did not identify an event, it
                   was likely because documentation in the medical records was incomplete.
                   Second, cost estimates do not include all costs of care associated with
                   events, including additional SNF stays caused by events but occurring after
                   our sample period, additional care beyond the hospitalizations (such as
                   physician office visits), and changes in Medicare RUG payments. Third, our
                   sampling methodology limits our findings to beneficiaries who had SNF
                   stays that ended in August 2011, began within 1 day of the beneficiaries’
                   discharges from hospitals, and were 35 days or less.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




                   81
                     We were not able to match one physician-identified hospitalization with a Medicare
                   claim for an inpatient hospital stay or an emergency room visit. We included this transfer
                   in our transfer rate but imputed the cost as zero dollars.



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   16
                   FINDINGS
                   An estimated 22 percent of Medicare SNF residents
                   experienced adverse events during their SNF stays
                   Approximately one in five Medicare beneficiaries who had post-acute
                   SNF stays that were 35 days or less and that ended in August 2011
                   experienced at least one adverse event during their stays (22 percent).82
                   For this study, an adverse event is as an event that resulted in harm
                   equivalent to the four most serious categories (F-I) on our modified
                   NCC MERP index (prolonged SNF stay or transfer to hospital, permanent
                   harm, life-sustaining intervention, or death). We estimate that
                   21,777 post-acute Medicare SNF residents experienced at least 1 adverse
                   event during stays that ended in August 2011. A small portion of residents
                   experienced more than one adverse event (2.6 percent), with a few of these
                   residents experiencing as many as three events during a single SNF stay.
                   The majority (79 percent) of the adverse events experienced by the
                   Medicare SNF residents caused F level harm (see Table 2). These events
                   either extended the beneficiaries’ stays in the SNFs or resulted in transfers
                   from the SNFs to hospitals for acute level care, including both emergency
                   department visits and inpatient admissions. Of the remaining events,
                   14 percent required a life-sustaining intervention and 6 percent contributed
                   to the residents’ deaths.
                   Table 2: Adverse Events Classified as F-I on OIG’s Modified NCC MERP
                   Index for Categorizing Adverse Events by Level of Harm
                                                                                                                     Percentage of
                     Level of Harm
                                                                                                                    Adverse Events
                     F level: Resulted in prolonged SNF stay, transfer to a different SNF or other
                     factor t post-acute facility, and/or hospitalization (i.e., admission to inpatient                             79%
                              care, hospital observation unit, or emergency department)
                     G level: Contributed to or resulted in permanent resident harm*                                                  --
                     H level: Required intervention to sustain the resident’s life                                                  14%
                     I level: Contributed to or resulted in resident death                                                          6%
                   See Appendix D for confidence intervals. 

                   *We are unable to reliably project the weighted point estimate for adverse events classified as G Level harm 

                   because of the small number of sample occurrences. 

                   Source: OIG analysis of SNF stays for 653 Medicare beneficiaries discharged in August 2011.


                   We classified the adverse events into three clinical categories: events
                   related to medication (37 percent), events related to ongoing resident care
                   (37 percent), and events related to infections (26 percent). Table 3 lists the
                   adverse events within these three categories. See Appendix F for a list of

                   82
                     For this study, we define “post-acute SNF stays” as SNF stays that were paid for by
                   Medicare Part A under the SNF benefit, began within 1 day of beneficiaries’ discharge
                   from hospitals, had lengths of stay of 35 days or less, and ended in August 2011.



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)                      17
                   the 148 events with detailed descriptions and level of harm. While some
                   events (such as pressure ulcers and hypoglycemia) have long been of
                   concern to post-acute caregivers, we found other events (such as severe
                   gastrointestinal bleeding due to anticoagulant overdose) not commonly
                   associated with nursing homes.
                   Table 3: Adverse Events Identified Among Medicare SNF Residents by
                   Category
                     Types of Adverse Events                                                                             Percentage*

                     Events Related to Medication                                                                                  37%
                        Medication-induced delirium or other change in mental status                                              12%
                        Excessive bleeding due to medication                                                                       5%
                        Fall or other trauma with injury secondary to effects of medication                                        4%
                        Constipation, obstipation, and ileus related to medication                                                 4%
                        Other medication events                                                                                   14%
                     Events Related to Resident Care                                                                               37%
                        Fall or other trauma with injury related to resident care                                                  6%
                        Exacerbations of preexisting conditions resulting from an omission of care                                 6%
                        Acute kidney injury or insufficiency secondary to fluid maintenance                                        5%
                        Fluid and other electrolyte disorders (e.g., inadequate management of fluid)                               4%
                        Venous thromboembolism, deep vein thrombosis (DVT), or pulmonary
                                                                                                                                    4%
                         embolism (PE) related to resident monitoring
                        Other resident care events                                                                                14%
                     Events Related to Infections                                                                                  26%
                        Aspiration pneumonia and other respiratory infections                                                     10%
                        Surgical site infection (SSI) associated with wound care                                                   5%
                        Urinary tract infection associated with catheter (CAUTI)                                                   3%
                        Clostridium difficile infection                                                                            3%
                        Other infection events                                                                                     5%
                     Total                                                                                                       100%
                   *The percentages for conditions listed within the clinical categories do not sum to 100 percent because of rounding. 

                   See Appendix D for percentage estimates and confidence intervals. 

                   See Appendix F for a complete listing of all adverse events identified by the reviewers. 

                   Source: OIG analysis of SNF stays for 653 Medicare beneficiaries discharged in August 2011. 


                   Within the sample, physician reviewers categorized some seemingly
                   similar events in different clinical categories because the events or factors
                   that led to the harm differed. This was most evident in the categorization
                   of resident fall events; physician reviewers categorized about half of
                   sample fall events as medication events and the other half as resident care
                   events. The fall events categorized as medication events demonstrated
                   clear evidence in the medical record that medication was the primary
                   cause of the fall, because of delirium and hallucinations caused by
                   psychotropic and other medications. Physician reviewers categorized the
                   remaining fall events as resident care events because the falls and
                   accompanying harm were the result of inadequate resident care (e.g., SNF
                   staff did not adequately monitor residents who were known fall risks)
                   rather than the effects of medication.

Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)                      18
                   The use of multiple medications often complicated the determination of
                   the primary cause of events, particularly when the primary cause was
                   related to another medication. For example, in one case our consulting
                   geriatric psychiatrist determined that the overuse of anti-anxiety
                   medication might have masked symptoms of hypoglycemia and resulted in
                   a delayed diagnosis.
                   An estimated 1.5 percent of Medicare SNF residents
                   experienced events that contributed to their deaths
                   This rate projects to an estimated 1,538 SNF residents who experienced
                   adverse events that contributed to their deaths during the study
                   month. Within the sample, events that contributed to deaths represented a
                   wide range of adverse events from each of the three clinical categories.
                   Resident care events that contributed to death included blood clots, such as
                   deep vein thrombosis (DVT); fluid imbalances; and acute renal
                   insufficiency. Medication events included excessive bleeding due to
                   anticoagulants and acute hypoglycemia. Most of these residents died at
                   hospitals rather than in the SNFs where the harm occurred, having been
                   transferred back to the hospitals for higher level treatment as a result of
                   the event. Some of these residents were admitted to hospitals, but others
                   died in emergency departments because of the acute nature of their
                   adverse events, such as cardiac arrest or excessive bleeding.
                   Although no single type of event was prominent within the sample as
                   contributing to death, residents who died as a result of events shared
                   commonalities. Most had multiple, complex co-morbidities that physician
                   reviewers determined made their care more challenging, weakened their
                   conditions, or both. For example, one resident who died from a PE had a
                   range of other chronic and acute conditions, including a serious infection,
                   chronic heart and kidney diseases, a history of blood clots, and dementia.
                   Other residents who died had previously experienced multiple instances of
                   the types of events that ultimately contributed to their deaths. For
                   example, one resident who died of aspiration had suffered multiple prior
                   strokes that likely hampered swallowing ability.
                   In the case of some resident deaths, physician reviewers found evidence in
                   the medical record that the deaths may have been expected by caregivers,
                   the residents, or family. In one such case, the medical record for the
                   resident’s prior hospitalization showed that the hospital physician stopped
                   medical intervention and suggested that the resident seek palliative care at
                   the SNF. In another case of an elderly resident, the SNF medical record
                   indicated that the resident’s family requested palliative care shortly before
                   the resident died of cardiac arrest. Most commonly, though, death during
                   the SNF stay was likely not an expected outcome, as in the case of a

Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   19
                   resident who died of cardiac arrest following progressive kidney failure
                   that was not detected until the resident was awaiting discharge from the
                   SNF.
                   An estimated 4 percent of Medicare SNF residents experienced
                   at least one “cascade” adverse event, wherein multiple, related
                   events occurred in succession
                   This rate projects to an estimated 3,986 residents who experienced cascade
                   events during the study month. A “cascade event” is defined as an event
                   that included a series of multiple, related events. We counted cascade
                   events as single events. Within the sample, medication often played a
                   secondary role in the cascading harm. For example, in one sample
                   cascade event, a resident with multiple comorbidities, including
                   neurological disorders (e.g., tremors, rigidity), and chronic kidney
                   insufficiency developed significant gastrointestinal bleeding from
                   excessive anticoagulation. The internal bleeding resulted in hematemesis
                   (vomiting blood), which ultimately caused a fatal aspiration. Also within
                   the sample, a number of cascade events began with inadequate resident
                   hydration. In at least one sample case, a resident experienced significant
                   dehydration followed by an electrolyte imbalance and damage to the
                   kidneys because SNF staff did not actively monitor and manage the
                   resident’s fluid intake.

                   An additional 11 percent of Medicare SNF residents
                   experienced events during their SNFs stays that
                   resulted in temporary harm
                   Another 11 percent of Medicare SNF residents experienced events
                   classified as E level harm on the NCC MERP index (defined as resident
                   harm events that required medical intervention but did not cause lasting
                   harm). We estimate that 10,742 post-acute Medicare SNF residents
                   experienced at least 1 temporary harm event during the study month. Of
                   these beneficiaries, an estimated 2,154 had more than 1 unrelated
                   event. Additionally, 21 percent of beneficiaries who experienced adverse
                   events also had temporary harm events during their stays.
                   As with adverse events, temporary harm events represented a wide array
                   of conditions from the three clinical categories (see Table 4). Table F-2 in
                   Appendix F contains a list of the 113 temporary harm events identified in
                   the sample and provides detailed descriptions.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   20
                   Table 4: Temporary Harm Events Identified Among SNF Residents by
                   Category
                     Types of Temporary Harm Events                                                                      Percentage*

                     Events Related to Medication                                                                                  43%
                         Hypoglycemic episodes (e.g., low or significant drop in blood glucose)                                   16%
                         Fall or other trauma with injury associated with medication                                               9%
                         Medication-induced delirium or other change in mental status                                              7%
                         Thrush and other nonsurgical infections related to medication                                             4%
                         Allergic reactions to medications (e.g., rash, itching)                                                   3%
                         Other medication events                                                                                   3%
                     Events Related to Resident Care                                                                               40%
                         Pressure ulcers                                                                                          19%
                         Fall or other trauma with injury associated with resident care                                            8%
                         Skin tear, abrasion, or breakdown                                                                         7%
                         Other resident care events                                                                                6%
                     Events Related to Infections                                                                                  17%
                         CAUTI                                                                                                     5%
                         SSI associated with wound care                                                                            5%
                         Other infection events                                                                                    7%
                     Total                                                                                                       100%
                   *The percentages for conditions listed within the clinical categories do not sum to 100 percent because of rounding. 

                   See Appendix D for percentage estimates and confidence intervals. 

                   See Appendix F for a complete listing of all temporary harm events identified by the reviewers. 

                   Source: OIG analysis of SNF stays for 653 Medicare beneficiaries discharged in August 2011. 


                   Although many cases of temporary harm within the sample represented
                   instances of fairly minor harm to the residents, other temporary harm
                   events caused harm that was significant for the residents. We did not
                   classify these events as adverse events because they did not require
                   transfer to a hospital or prolong the SNF stays. Additionally, physician
                   reviewers indicated that many sample temporary harm events could have
                   developed into more serious events if SNF staff had not provided a timely
                   intervention. For example, infection events such as Clostridium difficile
                   and CAUTIs can quickly escalate from infections to serious,
                   life-threatening infections if not diagnosed and treated quickly.83, 84




                   83
                      L.A. Mermel, “Reducing Clostridium difficile incidence, colectomies, and mortality in
                   the hospital setting: a successful multidisciplinary approach,” Joint Commission Journal
                   of Quality and Patient Safety, 39, 7, 2013: pp. 298-305.
                   84
                      Centers for Disease Control and Prevention (CDC), Inpatient Care of Septicemia or
                   Sepsis: A Challenge for Patients and Hospitals, National Center for Health Statistics
                   Data Brief, 2011.



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)                      21
                   Physician reviewers determined that 59 percent of
                   adverse events and temporary harm events were
                   clearly or likely preventable
                   Physician reviewers assessed the extent to which events were preventable
                   on the basis of information in the medical records, their clinical experience
                   with similar circumstances, research literature about specific events, and
                   group discussion to reach consensus. Combining adverse events and
                   temporary harm events, physicians determined that 59 percent were
                   preventable and 37 percent were not preventable. For the
                   remaining 4 percent, physicians were unable to make determinations
                   because of incomplete documentation in the medical records or extreme
                   complexities in the residents’ conditions or in the care provided. Table
                   5 provides the percentage of events by preventability assessment for
                   adverse events, temporary harm events, and both groups of events
                   combined.
                   Table 5: Adverse and Temporary Harm Events by Preventability
                   Determination
                                                                                Percentage of       Percentage of       Percentage
                     Preventability Assessment                                       Adverse           Temporary             of All
                                                                                      Events         Harm Events            Events
                     Preventable—Harm could have been avoided
                     through improved assessment or alternative                            69%                 46%               59%
                     actions
                          Clearly preventable                                              18%                   6%              13%
                          Likely preventable                                               50%                 40%               46%
                     Not preventable—Harm could not have been
                     avoided given the complexity of the resident’s                        29%                 47%               37%
                     condition or care required
                          Clearly not preventable                                          11%                 12%               11%
                          Likely not preventable                                           18%                 35%               26%

                     Unable To Determine Preventability*                                    3%                     --           4.2%
                   *We are unable to reliably project the weighted point estimate for temporary harm events classified as “Unable to

                   Determine” because of the small number of sample occurrences. 

                   Source: OIG analysis of SNF stays for 653 Medicare beneficiaries discharged in August 2011.


                   Physicians determined that a larger percentage of adverse events was
                   preventable (69 percent) than temporary harm events (46 percent).85 If we
                   were to include only preventable events in the estimated incidence rate of
                   adverse events among Medicare beneficiaries, the adverse event rate
                   would be 15 percent (rather than 22 percent) and the rate of additional
                   beneficiaries experiencing temporary harm events would be 5 percent
                   (rather than 11 percent). Physician reviewers determined that 66 percent
                   of medication events were preventable, 57 percent of resident care events

                   85
                     The ratio of preventable adverse events to adverse events was statistically higher than
                   the ratio of preventable temporary harm events to temporary harm events at the
                   95-percent confidence level.



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)                     22
                   were preventable, and 52 percent of infection events were preventable.
                   Table 6 provides the percentage of preventable events by clinical category.

                   Table 6: Percentage of Preventable Adverse and Temporary Harm Events
                   by Clinical Category
                                                                                                  Percentage of Preventable
                     Types of Adverse and Temporary Harm Events                                     Adverse and Temporary
                                                                                                      Harm Events (n = 155)
                     Events Related to Medication                                                                     66%

                     Events Related to Resident Care                                                                  57%

                     Events Related to Infections                                                                     52%
                   Source: OIG analysis of SNF stays for 653 Medicare beneficiaries discharged in August 2011.

                   Within the clinical categories, physician reviewers often gave the same
                   preventability assessment to events with similar circumstances. In making
                   preventability determinations for specific cases, physicians factored in
                   both the residents’ condition and the adequacy of SNF monitoring and
                   interventions. For example, all cases of hypotension in the sample were
                   considered preventable because all the residents developed the condition
                   because of insufficient monitoring. Similarly, all allergic reactions
                   identified in the sample were considered not preventable because the
                   residents’ medical records lacked historical information about allergies.
                   In other cases, similar events had different preventability determinations,
                   often because of variation in the health of SNF residents involved. For
                   example, reviewers described pressure ulcers as preventable when the
                   resident was generally healthy and able to comply with pressure ulcer
                   precautions (e.g., frequent rotation of the resident) but received inadequate
                   evidence-based pressure ulcer precautions. They described pressure ulcers
                   as not preventable when they found evidence that the resident received
                   evidence-based preventative pressure ulcer care but developed the ulcers
                   because of comorbidities that greatly increased their risk of developing
                   pressure ulcers. Physician reviewers reported that these comorbidities
                   made it difficult for SNF staff to provide the type of care typically used to
                   prevent such ulcers. As another example, among sample cases of
                   aspiration pneumonia, physicians determined preventability on the basis of
                   resident conditions that may not respond well to treatments, such as
                   chronic dysphagia (difficulty in swallowing). Among hypoglycemic
                   episodes, physicians determined similar cases as preventable on the basis
                   of factors such as the residents’ past experience with wide variance in
                   blood glucose levels and staff use of appropriate insulin dosing regimens.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)          23
                   Factors that contributed to preventable adverse and temporary
                   harm events included substandard treatment, inadequate
                   resident monitoring, and failing to provide treatments
                   Physician reviewers selected one or more rationales to support each
                   preventability determination from a list developed by the physician panel.
                   To make these selections, physicians gleaned information from medical
                   records, such as staff actions, environmental factors, and resident
                   condition unrelated to the event. Among preventable events, 37 percent
                   involved inadequate monitoring of the residents and 25 percent involved
                   failure to provide necessary treatments. One sample resident suffered an
                   undiagnosed pneumothorax (collapsed lung) because of SNF staff failure
                   to recognize symptoms of shoulder pain and shortness of breath. The
                   resident later had two additional events, a reaction to medication and a
                   blood clot, both requiring transfer to a hospital. Table 7 provides
                   preventability rationales for events within the preventable and not
                   preventable assessment categories.
                   Table 7: Adverse and Temporary Harm Events by Preventability
                   Rationales
                     Adverse and Temporary Harm Preventability Rationale                                            Percentage*
                     Preventable Events
                       Appropriate treatment was provided in a substandard way                                             56%
                       The resident’s progress was not adequately monitored                                                37%
                       Necessary treatment was not provided                                                                25%
                       Error was related to medical judgment, skill, or resident management                                14%
                       Resident care plan was inadequate                                                                   11%
                       Care plan was incomplete or not sufficient in describing resident’s condition                        7%
                       The resident’s health status was not adequately assessed                                             4%
                     Not Preventable Events
                       Resident was highly susceptible to event because of health status                                   59%
                       Event occurred despite proper assessment and procedures followed                                    32%
                       Resident’s diagnosis was unusual or complex, making care difficult                                  27%
                       Care provider could not have anticipated event given information available                          20%
                   *Percentages do not add to 100 because physician reviewers often selected more than one rationale. 

                   See Appendix D for confidence intervals. 

                   Source: OIG analysis of SNF stays for 653 Medicare beneficiaries discharged in August 2011.


                   Not preventable events involved residents who were highly
                   susceptible or otherwise at risk for experiencing harm despite
                   efforts by staff to avoid harm
                   In these cases, physicians determined that the care provided was sufficient
                   and appropriate and that there was no evidence of errors or other
                   problems. In some of these cases, necessary treatment resulted in harmful
                   side effects. For example, one elderly resident in our sample experienced
                   delirium from needed pain medications given following surgery and


Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)              24
                   another experienced gastrointestinal bleeding from anticoagulants
                   prescribed for a heart condition. In other cases, resident care decisions
                   made in the prior hospitalization resulted in harm during the SNF stay. In
                   one case, a resident developed a full body rash several days into the stay
                   that was an allergic reaction to an antibiotic that had been prescribed in the
                   preceding hospitalization and was continued in the SNF. In other cases of
                   not preventable adverse events, the SNF residents or families contributed
                   to the events by not complying with staff recommendations. For example,
                   one sample resident with Alzheimer’s-related dementia fractured his hip
                   while attempting to stand without assistance and another resident pulled
                   out his feeding tube, ultimately causing an infection at the insertion site.
                   For 59 percent of the not preventable events, physician reviewers found
                   that residents’ comorbidities or health status made them highly susceptible
                   to the events. Within our sample, aspiration pneumonia events were a
                   prominent example. Many of the sample beneficiaries who experienced
                   these events were highly susceptible to aspiration because they had
                   comorbidities that made it difficult for them to swallow. In one such case,
                   a resident with significant difficulty swallowing because of neurological
                   disorders (tremors, rigidity) aspirated despite a thorough evaluation and
                   with aspiration precautions in place (substituting liquid food for solid).86

                   Over half of the residents who experienced harm went
                   to a hospital for treatment, with an estimated cost to
                   Medicare of $208 million in August 2011
                   Adverse events that occurred in post-acute SNF stays of less than 36 days
                   ending in August 2011 resulted in an estimated 20,393 resident transfers to
                   hospitals and an estimated $208 million in Medicare expenditures for
                   these hospitalizations.87 Of the estimated $208 million spent on all
                   hospitalizations, $136 million was spent on hospitalizations associated
                   with preventable events. The estimate of $208 million spent on care
                   associated with all adverse events equates to 2 percent of the $10.2 billion
                   that Medicare spent on inpatient hospital stays in August 2011.88

                   86
                      The study methodology did not include an analysis of end-of-life care issues, such as
                   instructions from residents and families to not resuscitate residents in the event of a poor
                   condition. However, when these factors were present in the medical record, physician
                   reviewers considered them in determining preventability. For example, when the SNF
                   record included a signed order to provide only palliative care or included notes regarding
                   a discussion of such care with the resident or family, physician reviewers weighed that
                   obligation against any inadequacies in the provision of care leading up to the harm event.
                   87
                      For this study, we define “hospitalization” as any transfer to a hospital for an inpatient
                   admission, emergency department visit, or observation unit stay. 

                   88
                      The August 2011 Medicare inpatient cost figure is from OIG analysis of August 2011

                   Medicare hospital claims, NCH file. 




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   25
                   Assuming that the rate of Medicare spending on hospitalizations due to
                   adverse events in SNFs remained constant throughout the year, 2 percent
                   of the $140 billion Medicare inpatient expenditures equates to $2.8 billion
                   spent in FY 2011 on hospitalizations associated with preventable and not
                   preventable adverse events that occurred in SNFs.89
                   Of the estimated 32,519 Medicare SNF residents who experienced at least
                   1 adverse or temporary harm event, an estimated 19,470 (60 percent) were
                   hospitalized at least once as a result of the events. The hospitalized
                   residents constitute 19 percent of all Medicare beneficiaries in SNF stays
                   that were 35 days or less and that ended in August 2011.90 Because some
                   SNF residents were hospitalized more than once, the total number of
                   hospitalizations resulting from adverse events was 20,393. Within our
                   sample, infection-related events resulted in the fewest hospitalizations
                   among the three clinical categories but incurred the highest cost per
                   hospitalization (see Table 8).
                   Table 8: Costs of Hospitalizations Associated With Adverse Events
                                                                                   Estimated         Estimated        Estimated
                     Hospitalization Type                                          Number of          Average              Total
                                                                              Hospitalizations           Costs        Spending
                     Hospitalizations for medication events                                7,203          $8,372     $57,729,935

                     Hospitalizations for resident care events                             7,511          $8,967     $67,350,098

                     Hospitalizations for infections events                                5,679        $14,599      $82,899,180

                     Hospitalizations Associated With All Events                          20,393        $10,276     $207,979,213
                     Source: OIG analysis of SNF stays for 653 Medicare beneficiaries discharged in August 2011. 


                   Within the sample, certain types of events frequently led to
                   hospitalizations. For example, all sample aspiration pneumonia events led
                   to hospitalization. For most of these sample events, the medical records
                   indicated that SNF staff hospitalized the residents because the care needed
                   to ameliorate the respiratory distress caused by the aspiration exceeded the
                   level of care they could provide.
                   The full costs associated with these events are likely greater than our
                   estimate. Our cost estimate is a projection of reimbursements paid by
                   Medicare Part A for the hospitalizations associated with the identified
                   adverse events and by Medicare Part B for emergency room visits. It does

                   89
                      The annual cost estimate of $2.8 billion is 2 percent of the $140 billion Medicare
                   inpatient costs for FY 2011, which assumes the same proportion of costs for adverse
                   events for the other 11 months that we found in August 2011. Annual Medicare inpatient
                   cost figure is from CMS, 2011 CMS Statistics Book, Table III.6, Office of Research,
                   Development, and Information, CMS Pub. No. 03504, June 2011, p. 30.
                   90
                      The remaining Medicare SNF residents either did not experience adverse events or
                   temporary harm events, experienced events that did not lead to hospitalization, were
                   hospitalized for other reasons, or died during their SNF stays.



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)              26
                   not include any other costs paid by Medicare or by other payers—
                   including beneficiaries—for medical care needed as a result of the adverse
                   events or temporary harm events.

                   CONCLUSION AND RECOMMENDATIONS
                   The ACA mandated HHS to establish and follow a national strategy for
                   quality improvement in health care, including patient and resident safety.
                   Post-acute care in SNFs is intended to help beneficiaries improve health
                   and functioning following a hospitalization and is second only to hospital
                   care among inpatient costs to Medicare. While health care stakeholders
                   have in recent years given substantial attention to patient safety in
                   hospitals, less is known about resident safety in SNFs.
                   Replicating the methods we used in the 2010 OIG study of hospital
                   adverse events, this report provides the first national incidence rate of
                   adverse events in SNFs. Twenty-two percent of Medicare beneficiaries
                   experienced adverse events during their SNF stays, resulting in prolonged
                   SNFs stays or hospitalizations, permanent harm, life-sustaining
                   intervention, or death. An additional 11 percent experienced temporary
                   harm events. This 32-percent total harm rate is similar to what OIG found
                   in its 2010 hospital report, which stated that 27 percent of Medicare
                   beneficiaries had experienced adverse and temporary harm events during
                   their hospital stays. Also, 59 percent of events in SNFs were preventable,
                   and hospitalizations necessitated by the events increased costs to Medicare
                   by an estimated $208 million in a single month, suggesting potential
                   savings from reducing the incidence of adverse events that occur in SNFs.
                   Because more than half of the adverse events that we identified were
                   preventable, our study confirms the need and opportunity for SNFs to
                   significantly reduce the incidence of events. This reduction in events and
                   improved safety for post-acute residents would require a coordinated
                   response to include both providers and overseers. A number of agencies
                   within HHS share responsibility for addressing this issue, most
                   prominently AHRQ as a coordinating body for efforts to improve health
                   care quality and CMS as the Nation’s largest health care payer and an
                   oversight entity.
                   Therefore, we recommend the following:




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   27
                   AHRQ and CMS should raise awareness of adverse events in
                   post-acute care and seek to reduce harm to nursing home
                   residents through methods used to promote hospital safety
                   In response to recent OIG recommendations to reduce adverse events in
                   hospitals, AHRQ and CMS are collaborating to create a list of potentially
                   reportable adverse events for hospital staff education and facility
                   measurement. CMS also developed hospital surveyor training to assist
                   hospital overseers in assessing safety practices, and AHRQ has refined the
                   process for submitting event reports to PSOs. Broadening these and other
                   patient safety improvement efforts to include the nursing home
                   environment would ensure that safe care practices promoted in acute care
                   hospitals extend to the critical period of post-acute recovery.91 Agency
                   response to this recommendation should include the following:
                   	 AHRQ and CMS should collaborate to create and promote a
                      list of potential nursing home events
                      Staff identification of resident harm is critical to the success of
                      resident safety efforts, giving them the opportunity to correct problems
                      and reduce harm as well as to report problems contributing to events.
                      Our physician review of medical records found that many events were
                      the result of failure by SNF staff to monitor residents or staff delay in
                      providing necessary medical care. AHRQ and CMS should ensure
                      that nursing home staff are able to identify resident harm events to
                      prevent harm or worsening. Additionally, we found events not
                      commonly associated with nursing homes that therefore may not have
                      been included in staff training efforts.
                        To inform nursing homes about the range of potential adverse events,
                        AHRQ and CMS should collaborate to create and promote a list of
                        potentially reportable events for nursing homes. The list would
                        educate SNF staff about the full range of resident harm. The list
                        should go beyond the conventional SNF care issues and include a
                        comprehensive range of possible resident harm. Events could include
                        those identified in this report and by other researchers, recognizing the
                        unique challenges of the SNF setting rather than duplicating lists of
                        hospital events. AHRQ and CMS should be clear that they do not
                        require external nursing home reporting of these events, but provide
                        the list to broaden and improve staff understanding.



                   91
                     We specify that these efforts should be directed to all nursing homes rather than only to
                   post-acute care in SNFs, given that AHRQ and CMS guidance and CMS oversight
                   authority extend to all nursing home stays.



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   28
                   	 CMS should include potential events and information about
                      resident harm in its quality guidance to nursing homes
                      Under the ACA, nursing homes must develop QAPI programs to
                      address quality problems and improve facility performance. In 2013,
                      CMS began to provide new guidance to nursing homes to encourage
                      effective QAPI development and implementation. The initial
                      guidance, released in July 2013, focused on core elements needed to
                      improve practices, such as goal-setting. CMS has indicated that
                      subsequent materials to be released in 2014 will provide information
                      specific to clinical care and resident safety. CMS should ensure that
                      the guidance includes elements similar to what it has promulgated to
                      hospitals, including a definition of “adverse events,” a list of potential
                      adverse events for staff education on the range of harm that residents
                      can experience, strategies for detecting and measuring adverse events,
                      and best practices for improving staff recognition and reporting of
                      adverse events. Issuing similar guidance to both hospitals and nursing
                      homes may improve communication and collaboration regarding
                      shared safety concerns and care transitions as prescribed in the ACA.
                   	   AHRQ and CMS should encourage nursing homes to report
                        adverse events to Patient Safety Organizations
                        Nursing home reporting to PSOs would enable the post-acute
                        community to gain from the structure already in place for the hospital
                        community. Routine reporting by nursing homes could help establish
                        the process of event identification within facilities, and the resulting
                        PSO analysis of nursing home events would provide much-needed
                        information that would be useful in quality and safety improvement
                        efforts. Analysis of events across facilities assists providers in
                        directing resources to the areas of greatest need, setting clear goals for
                        improvement, assessing the effectiveness of specific strategies,
                        holding nursing homes accountable, and gauging progress in reducing
                        incidence.
                        Encouraging nursing home reporting to PSOs will require efforts on
                        the part of both agencies to adapt processes to the nursing home setting
                        and to reduce barriers to reporting. AHRQ has designed PSO
                        reporting formats for the nursing home setting, and a number of PSOs
                        accept adverse event reports from post-acute care providers. AHRQ
                        and CMS should build on these initial steps by conducting outreach to
                        nursing homes about event reporting, promoting the reporting of
                        adverse events by nursing homes to PSOs, and gaining knowledge
                        about the nature and type of information and assistance that would be
                        most helpful to nursing homes. AHRQ and CMS should also
                        collaborate to resolve any barriers to nursing home reporting due to


Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   29
                        possible conflicts between QAPI provisions that require nursing homes
                        to share event information with State agency surveyors and PSO
                        provisions that require confidentiality of reported information.
                   CMS should instruct nursing home surveyors to review facility
                   practices for identifying and reducing adverse events
                   Federal requirements regarding resident safety in SNFs include both
                   broad, facilitywide mandates, as well as requirements specific to certain
                   practices. These requirements are tied largely to nursing home QAPI
                   programs and governed by the facilities’ QAA committees. CMS should
                   instruct State survey agencies to include an assessment of adverse event
                   identification and reduction in their evaluations of QAPI and QAA
                   compliance and link related deficiencies specifically to resident safety
                   practices. This link would provide an incentive to nursing homes to
                   develop strategies to reduce adverse events. To facilitate State agency
                   assessment of QAPI programs, QAA committee activities, and other
                   nursing home activities related to adverse events, we recommend that this
                   guidance include information about how surveyors should assess nursing
                   home adverse event collection efforts and should include the list of
                   potentially reportable events to be developed by AHRQ and CMS.

                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   We received comments on the draft report from AHRQ and CMS.
                   AHRQ. AHRQ concurred with our recommendations. AHRQ stated that
                   the information presented in the report will help improve the care provided
                   to an “especially vulnerable patient population.”
                   In response to our sub-recommendation that AHRQ and CMS collaborate
                   to create and promote a list of potential nursing home events, AHRQ
                   stated that it will use information about the 261 events identified in our
                   report as it develops the next version of the Common Formats.
                   In response to our sub-recommendation that AHRQ and CMS encourage
                   nursing homes to report adverse events to PSOs, AHRQ stated that it will
                   increase its emphasis on this organizational priority. In particular, AHRQ
                   will conduct outreach to organizations representing nursing homes to
                   increase awareness of PSOs. AHRQ also noted that it is working with
                   CMS on the 11th Scope of Work for Quality Improvement Organizations,
                   specifically to resolve issues related to nursing home event reporting.
                   CMS. CMS concurred with our recommendations. CMS stated that it
                   recognizes the importance of identifying adverse events among nursing
                   home residents as a way to improve resident quality of life and medical

Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   30
                   care. In its comments, CMS provided details about current activities and
                   future plans to improve nursing home resident safety.
                   In response to our recommendation that AHRQ and CMS raise awareness
                   of adverse events in post-acute care and seek to reduce harm to nursing
                   home residents through methods used to promote hospital safety, CMS
                   agreed that helping nursing homes better understand what constitutes an
                   adverse event could reduce preventable harm. CMS also agreed that it
                   would be instructive to review methods used by hospitals to reduce
                   adverse events. CMS indicated that activities underway to establish
                   specific QAPI requirements for nursing homes may raise awareness of
                   adverse events. These activities include CMS development of technical
                   guidance on QAPI and release of the guidance to nursing homes.
                   In response to our sub-recommendation that AHRQ and CMS collaborate
                   to create and promote a list of potential nursing home events, CMS stated
                   that it will work with AHRQ to develop a common definition and
                   description of adverse events. CMS also stated that it intends to use the
                   results of the OIG’s review to build a list of potential adverse events.
                   In response to our sub-recommendation that CMS include potential events
                   and information about resident harm in its quality guidance to nursing
                   homes, CMS stated that it will include guidance on adverse events and a
                   list of potential events in its QAPI technical assistance and make this
                   available through the nursing home QAPI Web page.
                   In response to our sub-recommendation that AHRQ and CMS encourage
                   nursing homes to report to PSOs, CMS concurred conditionally. CMS
                   stated that while it believes PSOs can help nursing homes improve their
                   performance improvement capabilities, it is concerned that the
                   confidentiality and privilege protections outlined in the legislation that
                   created the PSOs—the Patient Safety and Quality Improvement Act of
                   2005—could make it difficult for surveyors to adequately assess nursing
                   home QAPI programs. Therefore, CMS stated that in implementing the
                   sub-recommendation, it would work with AHRQ to ensure preservation of
                   both the survey and certification function and the confidentiality and
                   privilege protections afforded by PSOs.
                   In response to our recommendation that CMS instruct nursing home
                   surveyors to review facility practices for identifying and reducing adverse
                   events, CMS stated that activities underway to establish QAPI
                   requirements for nursing homes will include guidance for surveyors on
                   how to evaluate nursing home efforts to identify and reduce adverse
                   events.
                   For the full text of AHRQ and CMS comments, see Appendix G.


Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   31
                   APPENDIX A
                   Glossary of Select Medical Terms92
                   Adverse event—Harm to a patient or resident as a result of medical care
                   or in a health care setting. For purposes of calculating an incidence rate
                   for this study, we defined “adverse events” as events that resulted in one of
                   the four most serious categories on our modified version of the NCC
                   MERP Patient Harm Index (classified on the index as F-I): prolonged
                   SNF stay or hospitalizations (including emergency room visit), permanent
                   harm, life-sustaining intervention, or death.
                   Anticoagulant—A drug that hinders blood coagulation, typically used to
                   prevent or treat blood clots.
                   Aspiration—Accidental inhalation of foreign material into the lungs, such
                   as food and/or gastric contents.
                   Aspiration pneumonia—An infectious process caused by the inhalation
                   of oropharyngeal secretions (food, liquid, or gastric contents) that are
                   colonized by pathogenic bacteria.
                   Blood clot—A coagulated mass that can occlude an artery or vein.
                   Comorbidity—The presence or effect of one or more diseases or
                   disorders in addition to a primary disease or disorder.
                   Chronic kidney insufficiency—Slow loss of kidney function over time.
                   Deep vein thrombosis or DVT—A condition marked by the formation of
                   a thrombus (blood clot) within a deep vein (as of the leg or pelvis) that is
                   potentially life threatening if dislodgment of the thrombus results in
                   pulmonary embolism blocking the pulmonary (lung) artery.
                   Fluid and electrolyte balance—Minerals in the body that have an electric
                   charge and are in body fluids, such as Sodium (Na+) and Potassium (K+).
                   Maintaining the right balance of electrolytes helps maintain normal
                   biochemical and physiological functions.
                   Gastrointestinal (GI) bleeding—Bleeding from one or more areas of the
                   digestive or GI tract.
                   Hypertension—Abnormally high arterial blood pressure that typically
                   results in a thickening of arterial walls and is a risk factor for various



                   92
                     Clinical definitions adapted from the National Institutes of Health, U.S. National
                   Library of Medicine, Medline Plus Medical Dictionary. Accessed at
                   http://www.nlm.nih.gov on May 5, 2013.



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   32
                   pathological conditions or events (such as heart attack, heart failure,
                   stroke, end-stage renal disease, or retinal hemorrhage).
                   Hypoglycemia—An abnormal decrease in blood sugar in the blood.
                   Hypotension—Abnormally low blood pressure.
                   Ileostomy—The bottom of the small intestine (ileum) attached to the
                   stoma; bypasses the colon, rectum, and anus.
                   Ileus—Hypomotility of the gastrointestinal tract in the absence of
                   mechanical bowel obstruction; specifically, a condition that is commonly
                   marked by a painful distended abdomen, vomiting, toxemia, and
                   dehydration when intestinal contents back up.
                   Ketoacidosis—A condition in which the body cannot use sugar (glucose)
                   for energy because there is no insulin or not enough insulin; fat is used for
                   energy instead. During ketoacidosis, ketones build up in the blood and
                   urine. In high levels, ketones are poisonous and potentially life
                   threatening.
                   Pressure ulcer—An ulceration of tissue deprived of adequate blood
                   supply by prolonged pressure; also called decubitus ulcer and bedsore.
                   Sepsis—A systemic response typically to a serious, usually localized,
                   infection (in the urinary tract or lungs), especially of bacterial origin.
                   Septicemia—Presence of virulent microorganisms, such as bacteria, virus,
                   or fungi from an infection accompanied by acute systemic illness.
                   Temporary harm event—Patient or resident harm event that required
                   intervention but did not cause lasting harm, a prolongation of medical stay,
                   or death or require a life-sustaining intervention; classified as E level of
                   harm on the NCC MERP index.
                   Thrush—Yeast infection that causes white patches in mouth, in the GI
                   tract, and in other mucocutaneous junctions.
                   Urinary tract infection (UTI)—An infection of the tract through which
                   urine passes and which consists of the renal tubules and renal pelvis of the
                   kidney, the ureters, the bladder, and the urethra.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   33
                   APPENDIX B
                   Methodology for Identifying Events and Determining
                   Preventability
                   We conducted a two-stage medical record review to identify adverse and
                   temporary harm events. In the first stage, a nurse practitioner and four
                   registered nurses (referred to as “screeners”) identified sample beneficiaries
                   who were likely to have experienced adverse and temporary harm events
                   during their SNF stays. In the second stage, physicians identified adverse
                   and temporary harm events in the records of the subset of beneficiaries who
                   were determined by the screeners as likely to have experienced adverse or
                   temporary harm events and in the records of those selected as part of an
                   assessment of the screener efficacy.
                   Screening for Beneficiaries Who Likely Experienced Harm Events. To
                   identify beneficiaries who were likely to have experienced adverse and
                   temporary harm events during their SNF stays, contracted screeners
                   reviewed the following: complete medical records from the SNF stays;
                   resident assessment data (i.e., Minimum Data Set) collected during the SNF
                   stay; discharge summaries, lab results, and other key documents from the
                   medical records of the hospital stays that preceded the SNF stays; discharge
                   summaries, lab results, and other key documents from the medical records of
                   the hospital stays or emergency room visits that occurred during the SNF
                   stays or within 14 days of the SNF discharge dates; and administrative and
                   billing data from the preceding and subsequent hospital stays. From the
                   SNF resident assessment data, we extracted information about each
                   resident’s health status during the stays, any chronic illnesses, rehabilitation
                   progress, and possible medical concerns (e.g., risk of falling, developing a
                   pressure ulcer). From hospital claims data, we extracted administrative data
                   (e.g., admission and discharge dates), diagnosis and procedure codes, and
                   information on the reimbursements paid by Medicare for the hospital stays.
                   The screeners reviewed the documents and data from the preceding and
                   subsequent hospital stays to look for evidence of events that occurred during
                   the SNF stays. A beneficiary was considered likely to have experienced an
                   adverse or temporary harm event if the screeners found at least one potential
                   event during any of the beneficiary’s hospital stays. Of the 653 beneficiaries
                   in the sample, the screeners “flagged” 262 beneficiaries’ (40 percent) records
                   for physician review.
                   To standardize their review, we required the screeners to use an
                   OIG-developed protocol—the SNF Trigger Tool—to identify triggers in the
                   medical record. These triggers are indicators of possible adverse and
                   temporary harm events. If the screeners found a trigger, they explored the



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   34
                   record further to determine whether events occurred and, if so, documented
                   the level of harm.
                   The screening process enabled us to reduce the number of cases requiring
                   second-level review of the full medical records by a physician. The
                   physician reviewers indicated that the results of the screening methods
                   helped them to readily identify potential adverse and temporary harm events
                   for consideration.
                   Determining a Screener False-Negative Rate. In addition to reviewing the
                   records associated with the 262 beneficiaries flagged by the screeners, the
                   physicians also reviewed the records of 100 beneficiaries randomly selected
                   from 391 beneficiaries who were not flagged by the screeners. The
                   physicians reviewed these records to determine the rate at which the
                   screeners failed to identify beneficiaries who likely experienced adverse or
                   temporary harm events. The physician reviewers found harm events not
                   otherwise found by the screeners in 7 of the 100 randomly selected
                   beneficiaries’ records. These events are noted in Appendix F.
                   Physician Identification of Events Within SNF Records. Five contracted
                   physicians independently reviewed the medical records of the
                   362 beneficiaries flagged by either the screening method or selected as part
                   of the screener false-negative rate review. The physician reviewers
                   represented a variety of specializations and experience: an infectious disease
                   specialist, a cardiologist, an orthopedic surgeon, an internal medicine
                   specialist, and a geriatrician with extensive experience as a SNF medical
                   director. All five had many years of clinical experience, and four had prior
                   experience in detecting adverse and temporary harm events in retrospective
                   medical record review. Four of the five served as physician reviewers for a
                   2010 OIG study of adverse events in hospitals.
                   To identify adverse and temporary harm events experienced by the SNF
                   residents during their SNF stays, the physicians reviewed all the information
                   made available to the screeners as well as the results of the screeners’
                   reviews. In addition to reviewing the SNF records, the physicians reviewed
                   the documents and data from the preceding and subsequent hospital stays to
                   look for evidence of events that occurred during the SNF stays.
                   Over 20 weeks, the physician reviewers examined the records of the 362
                   beneficiaries. Each case was reviewed by one physician. Physician
                   reviewers used a structured medical review protocol that required them to
                   describe each adverse event, list the parts of the medical record that
                   contained evidence of the event, and specify the level of harm experienced
                   by the patient. Harm was categorized in accordance with a modified version
                   of the NCC MERP Index of Categorizing Medication Errors. The modified
                   version of the NCC MERP index is in Table B-1.

Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   35
                   Table B-1: Modified Version of the NCC MERP Index for Categorizing
                   Errors Used in the OIG study of Adverse Events in SNFs
                    Level      Description                                                                                Category
                                                                                                                        Temporary
                        E    Harm occurred that caused temporary harm that required intervention.
                                                                                                                       Harm Event
                             Harm occurred that prolonged the SNF stay and led to a transfer to a
                             different SNF or other post-acute facility and/or hospitalization
                        F
                             (i.e., admission to a hospital observation unit, an emergency department, or
                             inpatient care).                                                                              Adverse
                        G    Harm occurred that contributed to or resulted in permanent resident harm.                       Event
                        H    Harm occurred that required intervention to sustain the resident’s life.
                        I    Harm occurred that may have contributed to or resulted in resident death.
                    Source: Modified version of the NCC MERP Index for Categorizing Errors, Medication Errors Council Revises and
                    Expands Index for Categorizing Errors: Definitions of Medication Errors Broadened, Press Release, June 12, 2001.

                   We recorded all harm events identified by the physician reviewers as
                   occurring during the SNF stays and attributable to SNF care. We excluded
                   all harm events that occurred before the beneficiary entered the SNF and all
                   events attributable to the care provided in the preceding hospitalization.
                   When an initial event caused a series of related and dependent events, we
                   collapsed the events into a “cascade event” and counted it as a single event.93
                   When a resident experienced a specific type of event more than once during
                   a stay (e.g., two episodes of hypoglycemia), we counted them as a single
                   event if the second event reoccurred within 7 days of the first event and
                   occurred under the same circumstances. We counted them as separate events
                   if the second event reoccurred more than 7 days after the first event or the
                   circumstances that led to the event were substantially different.
                   Determining Preventability for Each Event. The physician reviewers
                   included an assessment of the extent to which events were preventable and
                   factors that contributed to events. They used a five-point response scale:
                   	 Clearly Preventable—Resident harm could definitely have been
                      avoided through improved assessment or alternative actions.
                   	 Likely Preventable—Resident harm could have been avoided through
                      improved assessment or alternative actions.
                   	 Likely Not Preventable—Resident harm could not have been avoided
                      given the complexity of the resident’s condition or the care required.
                   	 Clearly Not Preventable—Resident harm could definitely not have
                      been avoided given the complexity of the resident’s condition or the
                      care required.


                   93
                     On the basis of OIG interviews with IHI staff, a “cascade event” is defined as an initial
                   event that causes a series of related events for the same patient and results in collapsing
                   these into a single event.



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)                  36
                       Unable To Determine—Physicians were unable to determine
                        preventability because of incomplete documentation or case
                        complexity.
                   Assessing an event as clearly preventable or clearly not preventable required
                   a greater degree of certainty on the part of the reviewer. The expanded scale
                   enabled physicians to make more precise determinations, while our primary
                   statistics collapse clearly and likely. Physician reviewers used a uniform
                   method to improve consistency in making preventability determinations. We
                   worked with the reviewers to develop a decision algorithm during practice
                   reviews consisting of a series of questions that led the reviewers to a
                   suggested response. Questions addressed issues such as whether there was a
                   medical error, whether the event could have been anticipated, and how
                   frequently the event occurred given proper care. Physicians did not
                   automatically accept the suggested response, but determined whether it was
                   appropriate in the particular case. Figure B-1 on the next page illustrates the
                   review process for determining preventability.
                   To make distinctions about the circumstances in each case, physicians used
                   their clinical experience and judgment. They considered all evidence in the
                   medical records, including staff actions and the resident’s condition.
                   Physicians also used information about accepted standards of care, the
                   frequency with which certain events occurred despite appropriate assessment
                   and care, the physicians’ individual clinical experiences, guidance developed
                   during the review process, and group discussion of cases. Using a list of
                   contributing factors gleaned from prior research and experience in prior OIG
                   studies of adverse event incidence, physicians indicated the rationale for
                   each determination and provided a narrative description for each case.
                   The list of contributing factors included broad concepts from the decision
                   algorithm, such as errors, but also more nuanced factors, such as whether the
                   resident was monitored or was susceptible to the event. To identify the
                   factors that contributed to the events and assess preventability, physicians
                   relied on information provided in the medical record about the residents’
                   conditions and actions of health care providers, supplemented by their own
                   clinical expertise. Physician reviewers used published research and policy
                   guidance regarding evidence-based guidelines and associated standards of
                   care.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   37
                   Figure B-1: Physician Review Process for Determining
                   Preventability




                   Consistency Discussions and Review. Throughout our medical records
                   review, we facilitated 17 conference calls during which the physician
                   reviewers discussed the review protocol and sample cases that either were
                   complex or had possible implications for other cases. The goal of these calls
                   was to reach consensus on difficult and complex cases and to establish
                   consistency between reviewers. On the calls, the physicians solicited the
                   opinions of the other panelists and used the conclusions of their discussions
                   to make determinations on difficult cases. We required that physicians

Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   38
                   discuss all clearly preventable determinations and events that potentially
                   contributed to a resident’s death during the weekly conference calls, and we
                   encouraged them to bring other cases for discussion if they had difficulty or
                   felt the cases would inform other determinations. Physicians also often
                   brought cases to group discussion if they involved care specific to a
                   specialization of another physician. We documented the discussions and
                   conclusions made during these weekly calls, continually revising a written
                   physician guidance document to further promote consistency. The
                   physicians reviewed or discussed the majority of the identified events as
                   well as possible events, which the group ultimately determined did not meet
                   the study threshold.
                   Following the medical records review, we analyzed the identified events,
                   harm-level determinations, and preventability determinations to identify any
                   inconsistencies and discussed these with physician reviewers. This process
                   resulted in changes to the initial determinations of some events.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   39
                   APPENDIX C
                   Development and Description of the SNF Trigger Tool
                   In preparation for this study, OIG built a trigger tool for screening SNF
                   medical records. We refer to this tool as the “SNF Trigger Tool.” For
                   studies of adverse events in hospitals in 2008 and 2010, OIG used a
                   modified version of the IHI’s GTT. The IHI GTT is a 20-minute review
                   of medical records that identifies “triggers” signaling possible resident
                   harm and then identifies adverse and temporary harm events on the basis
                   of evidence in the records. A trigger could be a description of the harm
                   itself or a reference that indicates harm occurred (such as a return to
                   surgery). The IHI GTT is to be completed by nurses. The results are then
                   to be confirmed or refuted by a physician. The IHI GTT is designed to be
                   specific to acute care medical records.
                   OIG developed a SNF Trigger Tool to apply the concept of the acute care
                   IHI GTT to post-acute SNF care. OIG staff and contracted physicians
                   developed the instrument in consultation with experts in trigger tool
                   development, geriatricians, a geriatric pharmacist, and nurses employed in
                   SNFs. The development process included reviewing triggers against
                   findings of published research, clinical expertise, and two rounds of
                   practice SNF record reviews. The development team used a seven-step
                   modified Delphi Method to identify and refine SNF triggers (see
                   Table C-1).94 The Delphi method facilitates group decision making by
                   prioritizing key issues for discussion and consensus.
                   Table C-1: OIG Modified Delphi Method for SNF Trigger Tool Development
                         Step
                                   Step Name                                                              Step Description
                        Number
                          1          Facilitator                    Facilitator serves as a moderator throughout all rounds.
                          2              Panel                                Convene panel of experts in the SNF setting.
                          3                 List                                     Create preliminary list of SNF triggers.
                                                       Respond to triggers with five-point scale and comment section to
                          4             Survey
                                                          select level of agreement that the trigger would lead to harm.
                                                   Compile responses for each trigger by clustering into Agree, Neutral,
                          5           Analysis
                                                        and Disagree. A mean was calculated for each of the groups.
                          6          Feedback                                 Calculate de-identified feedback and discuss.
                          7      Modifications                              Modify SNF trigger list according to discussion.
                    Source: SNF Trigger Tool development process.

                   The resulting SNF Trigger Tool worksheet includes 49 triggers that the
                   nurses used to screen cases for physician review (see Table C-2). The
                   worksheet divides triggers into three clinical categories: resident care,
                   medication, and procedures.


                   94
                     B.B. Brown, Delphi Process: A Methodology Used for the Elicitation of Opinions of
                   Experts, RAND Corporation, September 1968.



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)            40
  Table C-2: SNF Trigger Tool Worksheet

                    Care Module Triggers                                             Medication Module Triggers


   C1        Acute mental status change                                M1       Abnormal electrolytes

   C2        Aspiration                                                M2       Abrupt medication stop

   C3        Call to physician or family members                       M3       Anti-emetic use

   C4        Code or Emergency Medical Services (EMS)                  M4       Diphenhydramine (Benadryl) use

   C5        Death                                                     M5       Elevated INR

   C6        Drop in hemoglobin/hematocrit                             M6       Epinephrine use

   C7        Studies for emboli: PE or DVT                             M7       Glucose <50, Glucagon or Dextrose supplement

   C8        Fall                                                      M8       Abrupt onset hypotension

   C9        Family complaint                                          M9       Naloxone (Narcan) use

  C10        Any infection                                            M10       Sodium Polystyrene (Kayexalate administration)

  C11        New or increased diuretics                               M11       Abnormal drug levels

  C12        High or low body temperature                             M12       Thrombocytopenia

  C13        In (SNF) stroke or TIA                                   M13       Total WBC < 3000

  C14        New onset of incontinence                                M14       Vitamin K administration (Aqua-Mephyton)

  C15        Insertion or use of urinary catheter                     M15       Antibiotics started in SNF

             Significant Change in Status Assessment
  C16                                                                 M16       Increasing pain medication needs
             in MDS (SCSA)

  C17        Resident incident or accident                            M17       Administration of parenteral fluid

  C18        Pressure ulcer                                           M18       Rising ALT/AST liver function test

  C19        ED visit                                                 M19       Medication-Other
             Transfer to acute care hospital or observation
  C20
             (OBS) unit                                                               Procedure Module Triggers
  C21        Restraint use

  C22        Rising serum creatinine                                   P1       Postoperative/post-procedure complication

  C23        Urinary retention                                         P2       Procedure reintubation/BiPAP/new CPAP

  C24        New onset diarrhea                                        P3       Procedure-Other

  C25        Prolonged constipation                                     --                                --

  C26        Diagnostic radiology or imaging studies                    --                                --

  C27        Care-Other                                                 --                                --
Source: OIG, Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)




  Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)                41
                       APPENDIX D
                       Estimates, Confidence Intervals, and Key Statistics
Table D-1: Beneficiary Level Estimates, Confidence Intervals, and Key Statistics
                                                                              95-Percent                              95-Percent
                                                                              Confidence                              Confidence
                                                                               Interval                                Interval
                                              Sample                         Lower      Upper                       Lower       Upper
                                              Size (n)     Percentage        Bound     Bound         Frequency      Bound       Bound
 Event Experiences for All Beneficiaries

 Experienced at least one adverse event             653          21.7%        18.3%       25.4%           21,777    18,213     25,342     1


 Experienced at least two adverse
                                                    653            2.6%        1.6%         4.1%            2,615    1,407        3,824   2
 events
 Experienced at least one temporary
 harm event and didn’t experience an                653          10.7%         8.3%       13.7%           10,742     8,073     13,410     3
 adverse event
 Experienced at least one adverse event
                                                    653          32.4%        28.7%       36.2%           32,519    28,746     36,292     4
 or at least one temporary harm event
 Experienced only preventable adverse
                                                    653          15.4%        12.4%       19.0%           15,483    12,212     18,755     5
 events
 Experienced only preventable
 temporary harm events and no adverse               653            4.9%        3.5%         6.8%            4,923    3,317        6,530   6
 events
 Experienced adverse events that
                                                    653            1.5%        0.8%         2.8%            1,538      598        2,479   7
 contributed to death
 Experienced transfer to a hospital
                                                    653          19.4%        16.1%       23.1%           19,470    15,930     23,010     8
 because of an adverse event

 Experienced a cascade adverse event                653            4.0%        2.5%         6.2%            3,986    2,183        5,789   9


 Beneficiaries Who Experienced at Least One Adverse Event or One Temporary Harm Event

 Experienced at least one hospitalization
 that was the result of an adverse event            191          59.9%        52.0%       67.3%           19,470    15,930     23,010     10
 or a temporary harm event

 Beneficiaries Who Experienced at Least One Adverse Event

 Experienced temporary harm in addition
                                                    127          21.2%        15.0%       29.1%             4,615    3,053        6,178   11
 to adverse events

 Beneficiaries Who Experienced Temporary Harm Events and No Adverse Events

 Experienced multiple temporary harm
                                                     64          20.1%        12.0%       31.6%             2,154    1,050        3,257   12
 events and no adverse events
Source: OIG analysis of SNF stays and Medicare claims for 653 Medicare beneficiaries discharged in August 2011.




 Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)             42
Table D-2: Estimates, Confidence Intervals, and Key Statistics
                                                                                                                      95-Percent
                                                                                                                      Confidence
                                                                                                                        Interval
                                                                            Sample                                   Lower                Upper
                                                                            Size (n)      Percentage                 Bound                Bound

OIG’s Modified NCC MERP Index for Categorizing Adverse Events by Level of Harm

Harm F                                                                          148              78.5%                 70.8%                 86.3%     13

Harm G*                                                                         148                   --                    --                    --   14

Harm H                                                                          148              13.5%                  6.6%                 20.4%     15

Harm I                                                                          148               6.2%                  2.4%                 9.9%      16


Clinical Category for All Adverse Events

Medication adverse events                                                        148             37.4%                 28.0%              46.8%        17

Resident care adverse events                                                     148             36.8%                 27.6%              46.0%        18

Infection adverse events                                                         148             25.8%                 18.0%              33.6%        19

Adverse Events Related to Medication

Delirium or other change in mental status, e.g., over-sedation                   148             11.6%                  4.2%                 18.9%     20

Excessive bleeding                                                               148              4.9%                  1.2%                    8.7%   21

Fall or other trauma with injury                                                 148              3.7%                  0.8%                    6.6%   22

Constipation, obstipation, and ileus                                             148              3.7%                  0.8%                    6.6%   23

Other medication-related adverse events                                          148             13.5%                  7.1%                 20.0%     24

Adverse Events Related to Resident Care

Fall or other trauma with injury related to resident care                        148              5.5%                  2.0%                    9.1%   25

Exacerbations of preexisting conditions resulting from an omission
                                                                                 148              5.5%                  0.3%                 10.7%     27
of care
Acute kidney injury or insufficiency secondary to fluid maintenance              148              4.9%                  1.2%                    8.7%   26

Fluid and other electrolyte disorders (e.g., inadequate management
                                                                                 148              3.7%                  0.8%                    6.6%   28
of fluid)
Venous thromboembolism, DVT, or PE related to resident
                                                                                 148              3.7%                  0.3%                    7.0%   29
monitoring
Other resident care events                                                       148             13.5%                  6.8%                 20.1%     30

Adverse Events Related to Infections

Aspiration pneumonia and other respiratory infections                            148              9.8%                  3.8%                 15.8%     31

SSI associated with wound care                                                   148              4.9%                  1.6%                    8.3%   32

CAUTI                                                                            148              3.1%                  0.4%                    5.7%   33

Clostridium difficile infection                                                  148              3.1%                  0.4%                    5.7%   34

Other infection-related adverse events                                           148              4.9%                   1.5%                   8.3%   35


Clinical Category for All Temporary Harm Events

Medication temporary harm events                                                 113             42.8%                 33.5%                 52.2%     36

Resident care temporary harm events                                              113             40.3%                 30.9%                 49.7%     37

Infection temporary harm events                                                  113             16.8%                 10.0%                 23.7%     38

Continued on next page. 

*We are unable to reliably project the weighted point estimate for adverse events classified as G Level harm because of the small number of 

sample occurrences. 

Source: OIG analysis of SNF stays and Medicare claims for 653 Medicare beneficiaries discharged in August 2011. 





Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)                         43
Table D-2: Estimates, Confidence Intervals, and Key Statistics (Continued)
                                                                                                                     95-Percent
                                                                                                                     Confidence
                                                                                                                       Interval
                                                                         Sample                                     Lower          Upper
                                                                         Size (n)     Percentage                    Bound          Bound
Temporary Harm Events Related to Medication

Hypoglycemic episodes (e.g., low or significant drop in blood
                                                                              113             16.0%                   9.3%             22.7%   39
glucose)
Fall or other trauma with injury associated with medication                   113              9.2%                   1.9%             16.5%   40

Medication-induced delirium or other change in mental status                  113              6.7%                   2.3%             11.1%   41

Thrush and other nonsurgical infections related to medication                 113              4.2%                   0.6%             7.8%    42

Allergic reactions to medications (e.g., rash, itching)                       113              3.4%                   0.1%             6.7%    43

Other temporary harm events related to medication                             113              3.4%                   0.1%             6.6%    44

Temporary Harm Events Related to Resident Care

Pressure ulcers                                                               113             19.3%                  10.8%             27.8%   45

Fall or other trauma with injury associated with resident care                113              8.4%                   3.4%             13.5%   46

Skin tear, abrasion, or breakdown                                             113              6.7%                   2.2%             11.3%   47

Other resident care events                                                    113              5.9%                   1.7%             10.1%   48

Temporary Harm Events Related to Infections

CAUTI                                                                         113              5.0%                   1.1%             9.0%    50

SSI associated with wound care                                                113              5.0%                   1.1%             9.0%    51

Other temporary harm events related to infections                             113              6.7%                   1.8%             11.7%   52


Preventability Classification for All Adverse Events and Temporary Harm Events

  Preventable events                                                         261             59.2%                  52.7%             65.8%   53

    o Clearly preventable events                                              261             13.1%                  8.2%              18.0%   54

    o Likely preventable events                                               261             46.1%                 39.4%              52.8%   55

  Not preventable events                                                     261             36.5%                  30.2%             42.8%   56

    o Clearly not preventable events                                          261             11.0%                  7.3%              14.7%   57

    o Likely not preventable events                                           261             25.5%                 19.7%              31.3%   58

  Unable to determine                                                        261              4.2%                  0.9%               7.5%   59


Preventability Classification for Adverse Events

  Preventable adverse events                                                 148             68.7%                  60.7%             76.6%   60

    o Clearly preventable adverse events                                      148             18.3%                 10.7%              26.0%   61

    o Likely preventable adverse events                                       148             50.3%                 41.5%              59.2%   62

  Not preventable adverse events                                             148             28.9%                  21.1%             36.6%   63

    o Clearly not preventable adverse events                                  148             10.5%                  5.5%              15.4%   64

    o Likely not preventable adverse events                                   148             18.4%                 11.4%              25.4%   65

  Unable to determine adverse events                                         148              2.5%                  0.05%              4.9%   66

Continued on next page. 

Source: OIG analysis of SNF stays and Medicare claims for 653 Medicare beneficiaries discharged in August 2011. 





Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)                   44
Table D-2: Estimates, Confidence Intervals, and Key Statistics (Continued)
                                                                                                                      95-Percent
                                                                                                                      Confidence
                                                                                                                        Interval
                                                                           Sample                                    Lower                Upper
                                                                           Size (n)       Percentage                 Bound                Bound

Preventability Classification for Temporary Harm Events

  Preventable temporary harm events                                            113              46.3%                 36.3%                 56.3%      67

    o Clearly preventable temporary harm events                                 113                5.9%                 1.7%                 10.1%      68

    o Likely preventable temporary harm events                                  113              40.4%                 30.5%                 50.3%      69

  Not preventable temporary harm events                                        113              47.1%                 36.9%                 57.2%      70

    o Clearly not preventable temporary harm events                             113              11.8%                  6.0%                 17.6%      71

    o Likely not preventable temporary harm events                              113              35.3%                 25.3%                 45.3%      72

  Unable to determine temporary harm events*                                   113                   --                    --                     --   73

Preventable Adverse and Temporary Harm Events Within Each Clinical Category
Medication adverse and temporary harm events                                    103              66.1%                 56.0%                 76.1%      75

Resident care adverse and temporary harm events                                   99             56.5%                 46.0%                 66.9%      74

Infection adverse and temporary harm events                                       59             51.7%                 37.6%                 65.7%      76

Physician Rationale for All Preventable Events

Appropriate treatment was provided in a substandard way                          155             55.7%                 46.9%                 64.5%      77

Resident’s progress was not adequately monitored                                 155             36.5%                 28.2%                 44.8%      78

Necessary treatments were not provided                                           155             24.5%                 16.5%                 32.4%      79

Error related to medical judgment, skill, or resident management
                                                                                 155             14.3%                   8.1%                20.6%      80
occurred
Resident care plan was inadequate                                                155             11.3%                   5.4%                17.3%      81

Care plan was incomplete or not sufficient in describing resident
                                                                                 155              7.2%                   3.3%                11.1%      82
condition or care
Resident’s health status was not adequately assessed                             155              4.2%                   1.2%                   7.2%    83

Physician Rationale for All Not Preventable Events

Resident was highly susceptible to event because of health status                 97             59.2%                 48.0%                 70.5%      84

Event occurred despite proper assessment and procedures
                                                                                  97             31.9%                 21.1%                 42.8%      85
followed
Resident’s diagnosis was unusual or complex, making care difficult                97             27.1%                 16.5%                 37.8%      86

Care provider could not have anticipated event given information
                                                                                  97             20.4%                 12.2%                 28.6%      87
available
*We are unable to reliably project the weighted point estimate for adverse events classified as G Level harm because of the small number of 

sample occurrences. 

Source: OIG analysis of SNF stays and Medicare claims for 653 Medicare beneficiaries discharged in August 2011. 





Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)                         45
Table D-3: Point Estimates and Confidence Intervals for Total and Average Additional
Medicare Costs Associated With Adverse Events
                                                                                                                        95-Percent
                                                                                                                        Confidence
                                                                                                                         Interval
                                                                                Sample                               Lower         Upper
 Estimate Description                                                           Size (n)     Total Cost              Bound         Bound
 Costs Associated With Adverse Events in SNFs
 Increased cost because of hospitalizations from adverse events that
                                                                                     148   $207,979,213      $150,589,933       $265,368,492 88
 occurred during SNF stay

 Costs Associated With Preventable Adverse Events in SNFs

 Increased cost because of hospitalizations from preventable adverse
                                                                                     100   $135,548,133           $84,361,921   $186,734,346   89
 events that occurred during SNF stay
Source: OIG analysis of SNF stays and Medicare claims for 653 Medicare beneficiaries discharged in August 2011.



Table D-4: Projections and Confidence Intervals for Total and Average Additional
Medicare Costs Associated With Adverse Events Within the Clinical Categories
                                       95-Percent                                   95-Percent                               95-Percent
                                      Confidence                                   Confidence                               Confidence
                                        Interval                                    Interval                                 Interval
Category of
Adverse                             Lower      Upper                            Lower            Upper             Mean    Lower     Upper
Events              Frequency       Bound      Bound        Total Cost          Bound            Bound             Cost    Bound     Bound
Hospitalizations
and costs
associated with            7,203      4,716      9,691     $57,729,935      $29,686,945     $85,772,925           $8,372   $5,418    $11,326 90
medication
events

Hospitalizations
and costs
associated with            7,511      4,998     10,024     $67,350,098      $39,029,148     $95,671,047           $8,967   $7,064    $10,870 91
resident care
events

Hospitalizations
and costs
                           5,679      3,621      7,736     $82,899,180      $38,018,755    $127,779,605      $14,599       $9,386    $19,811 92
associated with
infections

Hospitalizations
and costs
associated with           20,393     16,688     24,097    $207,979,213    $150,589,933     $265,368,492      $10,276       $8,241    $12,312 93
all events in
SNFs
Source: OIG analysis of SNF stays and Medicare claims for 653 Medicare beneficiaries discharged in August 2011. 




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)                     46
                   APPENDIX E
                   Rates of Adverse Events and Temporary Harm Events in SNFs
                   by Resident Days and SNF Admissions
                   Health care facilities, particularly hospitals, commonly measure adverse
                   events by incidence density, which takes into account the period during
                   which residents are observed. For example, incidence density is often
                   used in measuring hospital-acquired infections because risk can increase
                   with the length of exposure to the health care environment.95 IHI, a
                   nonprofit advisory group to hospitals, cites advantages to using incidence
                   density metrics over standard incidence rates that measure the number of
                   events per resident.96 IHI reports that measuring total events by resident
                   days or hospital admissions enables hospitals to count multiple events
                   experienced by the same beneficiary.
                   The sample of 653 Medicare beneficiaries discharged during August 2011
                   included 692 total SNF stays (admissions) and a total of 10,759 days in the
                   SNF (resident days). We calculated resident days by subtracting the
                   admission date for each SNF stay from its discharge date. Table E-1
                   provides ratios for adverse events and temporary harm events in the
                   sample per 1,000 resident days and per 100 admissions.
                   Table E-1: Rates of Adverse and Temporary Harm Events in the Sample by
                   Resident Days and SNF Admissions
                                                                                               Per 1,000             Per 100
                     Category
                                                                                          Resident Days           Admissions

                     Adverse events                                                                      14               21

                     Temporary harm events                                                               11               16


                     Adverse and temporary harm events combined                                          24               38

                    Source: OIG analysis of SNF stays for 653 Medicare beneficiaries discharged in August 2011.




                   95
                      K.M. Arias, Outbreak Investigation, Prevention, and Control in Health Care Settings, 

                   Second Edition, 2009, Jones and Bartlett Publishers, pp. 330–331. 

                   96
                      IHI, IHI Global Trigger Tool for Measuring Adverse Events, Second Edition, 2009, 

                   p. 13.



Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)          47
                      APPENDIX F
                      Adverse Events and Temporary Harm Events
                      Tables F-1 and F-2 contain information about adverse events and
                      temporary harm events identified in the sample, including description,
                      harm level, and preventability. Table F-1 contains information about
                      adverse events (148 adverse events).97 Table F-2 contains information
                      about temporary harm events (113 events).


Table F-1: Adverse Events by Clinical Category, Harm Level, and Preventability (n=148)
                                                                                                            Harm
  Adverse Event                                                                                                     Preventability
                                                                                                            Level

  Events Related to Medication (55)
  Medication-induced delirium or other change in mental status (13)
     1. Delirium and agitation secondary to psychotropic and pain medications resulting in
                                                                                                              F         CNP          196
        hospitalization
     2. Delirium, hallucinations, and respiratory failure secondary to pain and anti-anxiety medications
                                                                                                              F         CP           67
        (opioids and benzodiazepines) resulting in hospitalization
     3. Confusion, delusions, and continuing episodes of disorientation secondary to pain medication
                                                                                                              F         LNP          106
        (opioids and benzodiazepines) resulting in hospitalization
     4. Delirium, disorientation, and hallucinations secondary to inappropriately prescribed anti-anxiety
        medication (lorazepam) and other medications (acetaminophen and hydrocodone,                          F          LP          142
        cyclobenzaprine Hcl)
     5. Cascade in which disorientation and hallucinations due to multiple medications
        (acetaminophen, hydrocodone, cyclobenzaprine Hcl, and lorazepam) led to a fall with resultant         F         CP           143
        skin tear and rib fracture, which led to pneumonia resulting in hospitalization
     6. Acute change in mental status due to inadequate hydration therapy that was exacerbated by
                                                                                                              F         CP           190
        multiple medications
     7. Acute change in mental status secondary to medication                                                 F         LNP          1239

     8. Cascade event in which confusion and somnolence secondary to medications led to
                                                                                                              F          LP          60
        dehydration because of decreased fluid intake
     9. Delirium secondary to multiple pain medications (opioids) resulting in hospitalization                F          LP          199

   10. Delirium secondary to psychiatric medications (hydrocodone)                                            F          LP          1241

   11. Confusion secondary to beta blocker (metoprolol) with sinus bradycardia                                F          LP          1242

   12. Episode of unresponsiveness secondary to psychiatric medication (lithium)*                             F         CP           1245

   13. Lethargy and altered mental status secondary to medication*                                            F          LP          1250

 *Event identified during screener false-negative rate review.
 Continued on next page.




                      97
                        The harm level is classified according to the modified version of the NCC MERP
                      Index for Categorizing Errors (E–I). Preventability determination is reflective of the
                      physician review index: CP = clearly preventable, LP = likely preventable, LNP = likely
                      not preventable, CNP = clearly not preventable, and UTD = unable to determine.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)        48
Table F-1: Adverse Events by Clinical Category, Harm Level, and Preventability (n=148)
(Continued)
                                                                                                            Harm
  Adverse Event                                                                                                     Preventability
                                                                                                            Level

  Events Related to Medication (55) (continued)
  Excessive bleeding due to medication (8)
     1. Cascade event in which hematemesis (gastrointestinal bleeding) from an anticoagulant
                                                                                                              I          LP           9
        (warfarin) led to aspiration, which resulted in death
     2. Epistaxis (significant bleeding through nose) due to anticoagulant (warfarin) resulting in
                                                                                                             H          CP            16
        hospitalization
     3. Gastrointestinal bleeding due to anticoagulation treatment (aspirin) resulting in hospitalization     F         LNP           38
     4. Cascade event in which hemoptysis (coughing up blood) associated with anticoagulant led to
                                                                                                              I         LNP           50
        aspiration, cardiac arrest, anoxic encephalopathy and contributed to resident’s death
     5. Cascade event in which anticoagulant (warfarin) toxicity led to hematemesis (gastrointestinal
                                                                                                             H          LNP           90
        bleeding) with resultant hypotension and kidney insufficiency resulting in hospitalization
     6. Coumadin toxicity led to gastrointestinal bleeding resulting in hospitalization                      F          LP            92
     7. Anticoagulant overdose led to hematemesis and subdural hematoma                                      H          CP           127

     8. Gastrointestinal bleeding secondary to anticoagulants resulting in hospitalization                   F         CNP           194

  Fall or other trauma with injury secondary to the effects of medication (6)
     1. Fall associated with atypical antipsychotic (quetiapine) led to right hip fracture resulting in
                                                                                                             G          LNP           95
        hospitalization
     2. Fall associated with inappropriately prescribed atypical antipsychotic (quetiapine) resulting in
                                                                                                              F          LP          115
        femur fracture resulting in hospitalization
     3. Fall associated with appropriately prescribed antipsychotic medication (haloperidol decanoate)
                                                                                                              F         CNP          146
        resulting in injury to hand
     4. Fall associated with appropriately prescribed atypical antipsychotic (olanzapine) and
                                                                                                              F         LNP          164
        antidepressant (escitalopram) that caused a hip fracture resulting in hospitalization
     5. Fall associated with inappropriately prescribed opiates for pain (hydromorphone,
                                                                                                              F          LP          1206
        hydrocodone/APAP, tramadol) resulting in rib fracture
     6. Fall associated with inappropriately prescribed antipsychotics (haloperidol decanoate and
                                                                                                              F          LP          1210
        risperidone) resulting in hematoma
  Constipation, obstipation, and ileus related to medication (6)
     1. Inadequate bowel care led to significant constipation secondary to opiates resulting in
                                                                                                              F          LP           89
        hospitalization
     2. Severe constipation due to pain medications (opioids)                                                 F          LP          126

     3. Significant ileus secondary to narcotics resulting in hospitalization                                 F        CNP           1207

     4. Significant constipation secondary to opiates resulting in hospitalization                            F         LNP          1223

     5. Significant ileus secondary to opiates and inadequate bowel care resulting in hospitalization         F          LP          1240

     6. Abdominal distention with ileus secondary to opiates                                                  F          LP          2001

  Hypoglycemic events related to medication (5)
     1. Hypoglycemic episode characterized by blood glucose of 31                                            H           LP           93

     2. Hypoglycemic episode characterized by blood glucose of 34                                            H           LP           94

     3. Hypoglycemic episode characterized by blood glucose of 32                                            H           LP          111

     4. Hypoglycemic episode characterized by blood glucose of 38 resulting in hospitalization and
                                                                                                              I          LP          213
        contributing to the resident's death
     5. Hypoglycemic episode characterized by a blood glucose of 20 resulting in hospitalization and
                                                                                                              I          LP          1232
        contributing to the resident's death
 Continued on next page.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)        49
Table F-1: Adverse Events by Clinical Category, Harm Level, and Preventability (n=148)
(Continued)
                                                                                                             Harm
  Adverse Event                                                                                                      Preventability
                                                                                                             Level

  Events Related to Medication (55) (continued)

  Medication-induced allergic reaction (4)
     1. Cascade event in which antibiotics (levofloxacin) given for an infected incision site caused an
                                                                                                               F         CNP           12
        unanticipated allergic reaction characterized by pruritic rash over most of resident's body
     2. Rash secondary to anticoagulant                                                                        F         CNP          134

     3. Rash secondary to antibiotic                                                                           F         CNP          145

     4. Rash secondary to antibiotics                                                                          F         CNP          147

  Ketoacidosis, hyperosmolar coma, and other complications of diabetes related to insulin management (3)
     1. Failure to provide adequate insulin care led to diabetic ketoacidosis resulting in hospitalization     F         CP            98
     2. Cascade event in which hyperosmolar diabetic coma characterized by somnolence and
                                                                                                               I         CNP          100
        vomiting led to aspiration resulting in hospitalization and contributing to the resident’s death
     3. Diabetic ketoacidosis due to insufficient administration of insulin resulting in hospitalization       F          LP          151

  Anemia and other blood count problems secondary to medication (2)
     1. Cascade event in which provision of antibiotics led to pancytopenia, angina, and pneumonia
                                                                                                               F          LP
        resulting in hospitalization                                                                                                  107
     2. Anemia due to inadequate administration of epoetin alfa (anemia medication) in resident with
                                                                                                               F          LP
        chronic kidney failure resulting in hospitalization                                                                           1209

  Hypotension secondary to medication (2)
     1. Syncope with atrial fibrillation and hypotension secondary to overdose of levothyroxine and
                                                                                                               F          LP
        liothyronine resulting in hospitalization                                                                                      51
     2. Hypotension secondary to ACE inhibitor resulting in hospitalization                                    F          LP          123

  Nausea and vomiting secondary to medication (2)
     1. Digoxin toxicity led to nausea                                                                         F          LP          133
     2. Nausea and vomiting secondary to antibiotic                                                            F          LP          184

  Other medication events (4)
     1. Acute kidney injury due to inadequate diuretic therapy characterized by hyperkalemia resulting
                                                                                                              H           LP          119
        in hospitalization
     2. Stroke because of a failure to provide anticoagulants resulting in hospitalization                    G           LP           6

     3. Hyperkalemia and severe dehydration due to ACE inhibitor (lisinopril) resulting in hospitalization    H          CP            47

     4. Seizure secondary to inadequate monitoring of antiepileptic medication resulting in
                                                                                                               F         CP            78
        hospitalization

  Events Related to Resident Care (54)

  Fall or other trauma with injury related to resident care (9)
     1. Fall resulting in chest hematoma                                                                       F          LP           10
     2. Fall with injury resulting in hospitalization                                                          F         LNP           24
     3. Fall with large hematoma on head resulting in hospitalization                                          F          LP           33
     4. Fall with nasal fracture resulting in hospitalization                                                  F         LNP           72
     5. Fall with injury resulting in hospitalization                                                          F         LNP           75
     6. Fall resulting in effusion and hematoma on knee resulting in hospitalization                           F         LNP          155
     7. Fall resulting in multiple skin tears                                                                  F          LP          159
     8. Fall resulting in hematoma on head resulting in hospitalization                                        F         LNP          215
     9. Ankle fracture due to unwitnessed trauma in SNF                                                        F         UTD          1215
 Continued on next page.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)         50
Table F-1: Adverse Events by Clinical Category, Harm Level, and Preventability (n=148)
(Continued)
                                                                                                            Harm
  Adverse Event                                                                                                   Preventability
                                                                                                            Level

  Events Related to Resident Care (54) (continued)

  Dehydration and related electrolyte disorders associated with resident care (8)
     1. Cascade event in which substandard monitoring of resident with known obstructive kidney
        disease resulted in progressive kidney failure, hyperkalemia (electrolyte abnormality                 I        CP           5
        characterized by high potassium), and cardiac arrest, which contributed to the resident’s death
     2. Cascade event in which failure to adequately hydrate resident with dysphagia led to
        hypovolemia, hypernatremia (electrolyte abnormality characterized by high sodium),
                                                                                                             H         CP          87
        hypotension, paroxysmal atrial tachycardia, need for cardioversion, non-STEMI myocardial
        infarction, and acute kidney injury resulting in hospitalization
     3. Cascade event in which failure to recognize postoperative delirium led to poor oral intake,
                                                                                                              F         LP         101
        hyperkalemia, and hypernatremia resulting in hospitalization
     4. Severe hypernatremia due to inadequate hydration resulting in hospitalization                         F        LNP         109

     5. Hyponatremia with increased lethargy and change in mental status due to free-water
                                                                                                              F         LP         112
        gastrostomy tube flushes resulting in hospitalization
     6. Change in mental status due to electrolyte disorder caused by multiple free water gastrostomy
        tube flushes in a resident with a recent history of syndrome of inappropriate antidiuretic            F         LP         114
        hormone secretion (SIADH)
     7. Cascade event in which insufficient monitoring of ileostomy led to leaking, excoriation around
                                                                                                             H          LP         165
        insertion site, significant dehydration, acute kidney injury, and high potassium
     8. Significant dehydration due to inadequate hydration resulting in hospitalization                      F         LP         256

  Acute kidney injury or insufficiency secondary to fluid maintenance (6)
     1. Cascade in which acute kidney injury due to inadequate hydration led to high potassium and
                                                                                                              F         LP         58
        uremia characterized by significant lethargy resulting in hospitalization
     2. Acute kidney injury characterized by severe hyperkalemia due to inadequate monitoring of
                                                                                                             H          LP         76
        electrolytes and serum creatinine resulting in hospitalization
     3. Acute kidney insufficiency and confusion due to inadequate hydration therapy resulting in
                                                                                                              F         LP         83
        hospitalization
     4. Acute kidney injury due to poor monitoring of hydration and inadequate diuretic therapy
                                                                                                              F         LP         118
        complicated by antipsychotics used to treat associated delirium
     5. Cascade event in which inadequate hydration led to acute kidney insufficiency, hypotension,
                                                                                                              F         LP         1229
        and obtundation
     6. Acute kidney injury due to progressive dehydration resulting in hospitalization and contributing
                                                                                                              I         LP         1231
        to the resident’s death
  Venous thromboembolism, DVT, or PE related to resident monitoring (6)
     1. DVT due to insufficient DVT prophylaxis resulting in hospitalization and a PE that contributed to
                                                                                                              I        UTD         36
        the resident’s death
     2. PE due to inadequate resident monitoring that resulted in a hospitalization and contributed to
                                                                                                              I        CP          43
        the resident’s death
     3. Delay in recognition of pneumothorax resulting in hospitalization                                     F         LP         183

     4. DVT and pulmonary embolism due to inadequate monitoring resulting in hospitalization                  F        CNP         185

     5. DVT due to a failure to provide adequate DVT monitoring and prophylaxis resulting in
                                                                                                              F         LP         212
        hospitalization
     6. Significant DVT due to failure to provide sufficient DVT monitoring and prophylaxis resulting in
                                                                                                              F        LNP         234
        hospitalization
 Continued on next page.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)        51
Table F-1: Adverse Events by Clinical Category, Harm Level, and Preventability (n=148)
(Continued)
                                                                                                               Harm
  Adverse Event                                                                                                      Preventability
                                                                                                               Level

  Events Related to Resident Care (54) (continued)

  Exacerbations of preexisting conditions resulting from an omission of care (6)
     1. Suicide attempt by resident at risk for suicide characterized by self-inflicted cuts on wrists
        resulting in hospitalization due to inadequate compliance with a care plan that was not sufficient       F         LP         161
        for the resident
     2. Failure to properly assess resident in SNF and in preceding hospital stay, which led to delay in
                                                                                                                 F         CP         170
        recognizing hip fracture resulting in hospitalization
     3. Jaundice, low hemoglobin, and lethargy due to a delay in recognition of acquired autoimmune
                                                                                                                 F        CNP         214
        hemolytic anemia resulting in hospitalization
     4. Hydronephrosis due to delay in needed post-hospital followup care for resident with significant
                                                                                                                 F         LP         227
        urinary tract obstruction
     5. Failure to provide appropriate intervention for increasing hypothyroidism and monitoring of
        increasing heart failure, which led to episode of exacerbated heart failure resulting in                 F         LP         240
        hospitalization
     6. Reduction in diuretics and failure to adequately monitor increased weight gain (anasarca)
        associated with congestive heart failure and cirrhosis resulting in hospitalization and contributing     H         LP         1244
        to the resident’s death*
  Respiratory issues (other than infections below) (4)

     1. Hypoxia and respiratory distress due to insufficient pulmonary suction resulting in hospitalization     H          CP          19

     2. Delay in diagnosis of pneumothorax and inadequate monitoring, which led to significant
                                                                                                                 H         LP         136
        worsening of condition characterized by difficulty breathing resulting in hospitalization
     3. Failure to provide adequate tracheostomy care resulted in acute respiratory failure                     H         LNP         246

     4. Cascade event in which delay in treatment for pleural effusion led to worsening of hypoxia
                                                                                                                 F         CP         1243
        (inadequate oxygen in blood) resulting in hospitalization for chest tube, drainage, and intubation*
  Excessive bleeding related to resident care (3)
     1. Excessive bleeding from infection site resulting in hospitalization                                      F         LP          68
     2. Excessive bleeding around wound vacuum pump site resulting in hospitalization                            F        LNP         160
     3. Hematuria secondary to Foley catheter resulting in hospitalization                                       F        UTD         205

  Displacement of feeding tubes related to resident monitoring (2)
     1. Feeding tube displacement due to lack of monitoring resulting in hospitalization                         F         LP          20
     2. Feeding tube displacement due to lack of monitoring resulting in hospitalization                         F         LP          77

  Hypotension related to resident care (2)
     1. Cascade event in which dehydration due to inadequate monitoring led to hypotension, sinus
                                                                                                                 F         LP
        tachycardia, and atrial fibrillation resulting in hospitalization                                                              31
     2. Hypotension and hematuria due to inadequate monitoring of Foley catheter resulting in
                                                                                                                 F         CP
        hospitalization                                                                                                               249

  Stage III or IV pressure ulcers (2)
     1. Stage III pressure ulcer on sacrum and stage II pressure ulcer on buttocks                               F         CP          59

     2. Stage III pressure ulcer on heel                                                                        G          LP         254

  Other resident care events (6)
     1. Clogged arteriovenous shunt (dialysis access device) due to excessive blood clotting                     F         LP         203

     2. Significant constipation resulting in hospitalization                                                    F        LNP          55

     3. Cascade event in which failure to provide adequate skin care caused a skin friction abrasion that
                                                                                                                 F         LP         1228
        progressed to a stage II pressure ulcer and developed cellulitis resulting in hospitalization
     4. Omission of care, which led to progressive weakness and decreased bowel and overall functional
                                                                                                                 F         CP          61
        status resulting in hospitalization
     5. Substandard urinary catheter care, which led to urinary retention resulting in hospitalization           F         LP          73

     6. Cascade event in which pulmonary fluid overload led to decreased oxygenation, respiratory
                                                                                                                 H         LP         166
        failure, atrial flutter, and significant lethargy resulting in hospitalization
 *Event identified during screener false-negative rate review.

 Continued on next page. 




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)           52
Table F-1: Adverse Events by Clinical Category, Harm Level, and Preventability (n=148)
(Continued)
                                                                                                               Harm
  Adverse Event                                                                                                        Preventability
                                                                                                               Level

  Events Related to Infections (39)

  Aspiration pneumonia and other respiratory infections (13)
    1. Aspiration pneumonia due to inadequate aspiration precautions and monitoring of resident
                                                                                                                F          CNP           22
       with history of dysphagia
    2. Aspiration pneumonia due to failure to monitor resulting in hospitalization                              F           LP           71
    3. Cascade event in which dysphagia and vomiting led to aspiration pneumonia, associated with
       hyperglycemia (with diabetic ketoacidosis or hyperosmolar coma) and hyponatremia, resulting              F          CNP           84
       in hospitalization
    4. Several episodes of emesis, which led to aspiration pneumonia resulting in hospitalization               F          CNP          116

    5. Aspiration pneumonia resulting in hospitalization                                                        F           LP          135

    6. Aspiration pneumonia resulting in hospitalization                                                        F          LNP          188

    7. Cascade event in which aspiration pneumonitis led to respiratory failure resulting in
                                                                                                                H           LP          207
       hospitalization
    8. Aspiration pneumonitis resulting in hospitalization                                                      F          CNP          210
    9. Aspiration pneumonia characterized by tachypnea, dyspnea, and chest congestion resulting in
                                                                                                                 I         CNP          220
       hospitalization and contributing to the resident’s death
   10. Emesis associated with lung infiltrate resulting in hospitalization                                      F          CNP          1224
   11. Recurrence of pneumonia due to incomplete treatment of prior pneumonia resulting in
                                                                                                                F          UTD          1234
       hospitalization
   12. Cascade event in which aspiration pneumonitis led to respiratory failure, which exacerbated
                                                                                                                H           CP          1236
       resident’s COPD resulting in hospitalization for needed BIPAP treatment
   13. Aspiration pneumonia resulting in hospitalization*                                                       F          LNP          1254

  SSI attributable to wound care (8)
     1. Superficial infection around surgical incision site on lower back                                       F           LP           4

     2. Superficial infection around surgical incision site for recent knee arthroplasty                        F           LP           11

     3. Superficial infection around surgical incision site on hip                                              F           LP           45

     4. Superficial infection around surgical incision site on leg resulting in hospitalization                 F           LP           53

     5. Superficial infection around surgical incision site for recent toe resection resulting in
                                                                                                                F           LP           54
        hospitalization
     6. Cellulitis at surgical site resulting in hospitalization                                                F           LP          149

     7. Cellulitis at PEG tube placement site resulting in hospitalization                                      F          LNP          150

     8. Cellulitis at site of skin graft resulting in hospitalization                                           F          LNP          217

  CAUTI (5)
     1. Urinary tract infection associated with urinary catheter resulting in hospitalization                   F           LP           99

     2. Cascade in which a partial obstruction due to Foley catheter placement led to a urinary tract
                                                                                                                F           LP          187
        infection.
     3. Urinary tract infection associated with urinary catheter                                                F           LP          216

     4. Urinary tract infection associated with urinary catheter characterized by acute change in
                                                                                                                F           CP          255
        mental status resulting in hospitalization
     5. Cascade event in which urosepsis led to dehydration, hypotension and paroxysmal
                                                                                                                F          LNP          1225
        supraventricular tachycardia
  Clostridium difficile infection (5)
     1. Clostridium difficile infection resulting in hospitalization                                            F           LP           74
     2. Clostridium difficile infection                                                                         F           LP          158
     3. Clostridium difficile infection associated with significant weight loss resulting in hospitalization    F           CP          218
     4. Clostridium difficile infection resulting in hospitalization                                            F          LNP          229
     5. Clostridium difficile infection resulting in hospitalization                                            F           LP          242
 *Event identified during screener false-negative rate review.

 Continued on next page. 





Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)            53
Table F-1: Adverse Events by Clinical Category, Harm Level, and Preventability (n=148)
                                                                                                         Harm
  Adverse Event (Continued)                                                                                       Preventability
                                                                                                         Level

  Events Related to Infections (39) (continued)

  Sepsis (3)
     1. Urinary tract infection associated with urinary catheter characterized by acute change in
                                                                                                          F            CP          39
        mental status and somnolence resulting in hospitalization
     2. Sepsis due to progression of inadequately treated pneumonia resulting in hospitalization          H            CP          88
     3. Failure to provide adequate care for urinary tract infection, which led to sepsis resulting in
                                                                                                          F           LNP          167
        hospitalization
  Vascular-catheter associated infection, e.g., PICC line, central line (3)
     1. Port site infection resulting in hospitalization                                                  F            LP          86

     2. Infection (MRSA) around dialysis insertion site resulting in hospitalization                      F           LNP          182

     3. Cascade event involving DVT and catheter-associated central line infection                        F            LP          243

  Soft tissue or other nonsurgical infection (2)
     1. Cellulitis on legs resulting in hospitalization                                                   F           LNP          69

     2. Progressive infection characterized by rash, sloughing, and necrosis resulting in
                                                                                                          F            CP          140
        hospitalization
 Source: OIG analysis of SNF stays for 653 Medicare beneficiaries discharged in August 2011.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)       54
Table F-2: Temporary Harm Events by Clinical Category and Preventability (n=113)
  Temporary Harm Event                                                                                           Preventability

  Events Related to Medication (48)

  Hypoglycemic episodes (e.g., low or significant drop in blood glucose) (19)
     1. Multiple hypoglycemic episodes characterized by lowest blood glucose of 24                                   CP           224

     2. Hypoglycemic episode characterized by blood glucose of 32                                                     LP           25

     3. Multiple hypoglycemic episodes characterized by lowest blood glucose of 35                                   CP            34

     4. Multiple hypoglycemic episodes characterized by blood glucose of 55 and unresponsiveness                     CP            70

     5. Hypoglycemic episode characterized by blood glucose of 43                                                     LP           82

     6. Hypoglycemic episode characterized by blood glucose of 59 and lethargy                                        LP           91

     7. Hypoglycemic episode characterized by blood glucose of 39                                                    LNP           96

     8. Hypoglycemic episode characterized by blood glucose of 49                                                     LP          125

     9. Hypoglycemic episode characterized by blood glucose of 49 and diaphoresis (excessive sweating)               LNP          148

   10. Multiple hypoglycemic episodes characterized by lowest blood glucose of 66 and diaphoresis                    CP           153

   11. Hypoglycemic episode characterized by significant drop in blood glucose from baseline                          LP          163

   12. Hypoglycemic episode characterized by shaking and heart palpitations                                           LP          171

   13. Hypoglycemic episode characterized by blood glucose of 48                                                      LP          173

   14. Hypoglycemic episode characterized by a significant drop in blood glucose                                      LP          244

   15. Cascade event in which hypoglycemic episode characterized by blood glucose of 53 resulted in fall              LP          245

   16. Hypoglycemic episode characterized by symptoms and blood glucose of 57                                        CNP           15

   17. Multiple hypoglycemic episodes characterized by blood glucose of 54 and 48                                     LP          252

   18. Hypoglycemic episodes characterized by significant drop in blood glucose and trembling                         LP          1208

   19. Multiple hypoglycemic episodes characterized by lowest blood glucose of 20                                    CP           1211

  Medication-induced delirium or other change in mental status (8)
     1. Delirium secondary to pain medication (hydrocodone)                                                           LP           7

     2. Delirium and hallucinations due to pain medication (opioid)                                                   LP           13

     3. Delirium and hallucinations secondary to polypharmacy                                                         LP           17

     4. Delirium secondary to pain medication (opioid), which caused resident to pull IV tube                         LP           66

     5. Confusion and anxiety secondary to pain medication (oxycodone)                                                LP           79

     6. Lightheadness and vertigo due to pain medication (opioids)                                                   LNP          130

     7. Confusion secondary to pain medication (opioids)                                                              LP          178

     8. Episode of diaphoresis and dizziness due to pain medication (oxycodone and paracetamol)                      CNP          200

  Fall or other trauma with injury associated with medication (8)
     1. Fall associated with inappropriately prescribed anti-anxiety medication (clonazepam) resulting in
                                                                                                                      LP           27
        injury to head
     2. Fall associated with appropriately prescribed anti-anxiety medication (lorazepam) resulting in
                                                                                                                     LNP          154
        abrasions
     3. Fall associated with anti-anxiety medications (lorazepam and escitalopram) and inappropriately
                                                                                                                      LP          157
        prescribed atypical antipsychotropic medication (risperidone) resulting in abrasion
     4. Multiple falls associated with inappropriately prescribed antidepressant (fluoxetine) and anti-anxiety
        medications (selective serotonin reuptake inhibitor and lorazepam) resulting in skin tears and                LP          168
        abrasions
     5. Fall associated with poor diabetes management (multiple episodes of hypoglycemia and
                                                                                                                      LP          1213
        hyperglycemia) resulting in abrasions
     6. Fall associated with inappropriately prescribed anticholinergic (amitriptyline and perphenazine)
                                                                                                                      LP          1235
        resulting in skin tear on forearm
     7. Delirium and disorientation secondary to opiates for pain (oxycodone) resulting in multiple falls
                                                                                                                     LNP          1252
        without injury*
     8. Fall associated with psychotropic medications (alprazolam and risperidone) resulting in abrasions             LP          122
 * Event identified during screener false-negative rate review.

 Continued on next page.





Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)            55
Table F-2: Temporary Harm Events by Clinical Category and Preventability (n=113)
(Continued)
  Temporary Harm Event                                                                                      Preventability

  Events Related to Medication (48) continued
  Thrush and other nonsurgical infections related to medication (5)
     1. Oral thrush secondary to antibiotics                                                                      CNP        35

     2. Candida vaginitis secondary to antibiotics                                                                CNP        40

     3. Oral and pharyngeal thrush secondary to antibiotic                                                        CNP        46

     4. Pharyngeal thrush secondary to antibiotic                                                                 CNP        49

     5. Candida vaginitis and oral thrush secondary to antibiotics                                                LNP        241

  Allergic reactions to medications (e.g., rash, itching) (4)
     1. Allergic reaction to medication (fluroquinolone antibiotic) characterized by itching                      CNP        30

     2. Rash in groin area due to immunosuppressant (methotrexate)                                                LNP        176

     3. Skin rash on abdomen and legs associated with medication                                                  CNP        186

     4. Pruritus associated with narcotics                                                                        CNP        230

  Constipation, obstipation, and ileus (2)
     1. Significant constipation secondary to pain medication (opioids)                                           LNP        18

     2. Significant constipation secondary to pain medication (opioids) and inadequate bowel care                 LP         108

  Other medication events (2)
     1. Seizure in resident with history of seizures during period of inadequate levels of anti-epileptic
                                                                                                                  LNP        121
        (phenytoin)
     2. Significant and unanticipated diarrhea secondary to laxative                                              LP          2


  Events Related to Resident Care (45)

  Pressure ulcers (20)
     1. Stage I pressure ulcer                                                                                    UTD        28

     2. Progression of stage I pressure ulcer to stage II pressure ulcer                                          LP         52

     3. Stage I pressure ulcers on heels                                                                          LP         63

     4. Progression of stage I pressure ulcer to a stage II pressure ulcer                                        LNP        81

     5. Stage I pressure ulcers on buttocks and heel                                                              LP         104

     6. Stage II pressure ulcer on buttocks                                                                       LP         110

     7. Stage I pressure ulcer on coccyx                                                                          LP         124

     8. Stage I pressure ulcer                                                                                    LP         156

     9. Stage II pressure ulcers on thigh and stage I pressure ulcers on buttock and coccyx                       LNP        169

   10. Progression of stage I pressure ulcers on coccyx and heels to stage II ulcers                              LNP        195

   11. Progression of pressure ulcer on buttocks from stage I to stage II                                         LNP        209

   12. Stage I pressure ulcer on heel                                                                             LNP        223

   13. Stage I pressure ulcer on heel                                                                             LNP        225

   14. Progression of stage I pressure ulcer to stage II                                                          LP         239

   15. Multiple stage I pressure ulcers on heels, elbow, scapula, and toe                                         CNP        250

   16. Stage II pressure ulcer on heel                                                                            CP         1226

   17. Stage I pressure ulcer on coccyx*                                                                          UTD        1248

   18. Unstagable pressure ulcer on left heel                                                                     LNP        132

   19. Unstagable pressure ulcer on right heel                                                                    LP         1233

   20. Stage III pressure ulcer on hand                                                                           LNP        57 

 * Event identified during screener false-negative rate review.

 Continued on next page.

                                                                                                                               


Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)        56
Table F-2: Temporary Harm Events by Clinical Category and Preventability (n=113)
(Continued)
  Temporary Harm Event                                                                                          Preventability

  Events Related to Resident Care (45) continued

  Fall or other trauma with injury associated with resident care (10)
     1. Fall resulting in skin tear                                                                                  LP           1

     2. Fall with injury to head                                                                                     LP          29

     3. Fall with skin tear                                                                                         LNP          37

     4. Trauma while in bed characterized by abrasions on temple and elbow                                          LNP          85

     5. Fall resulting in abrasions on face and elbow                                                               LNP          198

     6. Fall resulting in elbow fracture                                                                            LNP          211

     7. Multiple falls resulting in skin tear on hand and elbow                                                     LNP          232

     8. Fall resulting in multiple skin tears on appendages and bruising on head                                    LNP          236

     9. Fall from motorized wheelchair resulting in multiple scrapes and abrasions                                  CNP          247

   10. Fall resulting in hematoma on head                                                                           LNP          1230

  Skin tear, abrasion, or breakdown (8)
     1. Skin tears on arm and leg                                                                                   LNP          97

     2. Skin tear on leg                                                                                            LNP          141

     3. Multiple skin breakdowns above the coccyx                                                                   LNP          162

     4. Skin tear on elbow                                                                                          CNP          179

     5. Pressure wound on leg associated with cast                                                                   LP          181

     6. Abrasion on forearm caused by collision with railing                                                        LNP          231

     7. Skin tear on right forearm                                                                                  LNP          1220

     8. Multiple skin excoriations                                                                                  UTD          1222

  Other resident care events (7)
     1. Acute urinary retention                                                                                     LNP          105

     2. Multiple day delay in appropriate treatment of excessive swelling in a resident recovering from a hip
                                                                                                                     LP          80
        fracture, which resulted in difficulty breathing
     3. Hypotension due to inadequate hydration therapy                                                              LP          65

     4. Failure to monitor resident, which led to dislodged enteral feeding tube requiring multiple
                                                                                                                    LNP           3
        replacement attempts
     5. Cascade event in which inadequate monitoring led to severe dehydration with associated confusion
                                                                                                                     LP          120
        leading to falls with minor injuries
     6. Blistering caused by medical tape                                                                            LP          14

     7. Acute kidney injury secondary to inadequate monitoring of urinary retention                                 LNP          253


  Events Related to Infections (20)

  CAUTI (6)
     1. Multiple catheter associated urinary tract infections secondary to multiple catheterizations.                LP          21

     2. Recurrent urinary tract infections associated with urinary catheter                                          LP          102

     3. Urinary tract infection associated with urinary catheter                                                     LP          113

     4. Urinary tract infection associated with urinary catheter                                                    CP           128

     5. Urinary tract infection associated with urinary catheter                                                    LNP          177

     6. Urinary tract infection associated with urinary catheter                                                     LP          226

 Continued on next page.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)           57
Table F-2: Temporary Harm Events by Clinical Category and Preventability (n=113)
  Temporary Harm Event                                                                                      Preventability

  Events Related to Infections (20) continued

  SSI attributable to wound care (6)
     1. Superficial infection at surgical incision site                                                           LNP        174

     2. Superficial infection at surgical incision site                                                           LNP        180

     3. Cellulitis at surgical site                                                                               LP         206

     4. Cellulitis at surgical site                                                                               LP         208

     5. Superficial infection at surgical incision site for a lower leg fracture                                  LP         238

     6. Superficial infection at surgical incision site for recent knee replacement                               UTD        1219

  Soft tissue or other nonsurgical infection (4)
     7. Conjunctivitis on eye                                                                                     LNP        103

     8. Fungal skin infection on abdomen                                                                          LNP        129

     9. Blepharitis (swelling of the eyelids)                                                                     LNP        131

   10. Bacterial conjunctivitis                                                                                   UTD        193

  Clostridium difficile infection (2)
   11. Clostridium difficile infection following treatment with broad spectrum antibiotic                         CNP        23

   12. Clostridium difficile infection                                                                            LP         228

  Other infections (2)
   13. Sepsis resulting from urinary tract infection                                                              LNP        1246

   14. Aspiration pneumonia                                                                                       CNP        1212

 Source: OIG analysis of SNF stays for 653 Medicare beneficiaries discharged in August 2011.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)        58
                   APPENDIX G
                   Agency Comments: AHRQ




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   59

                       Also related to this recommendation, AHRQ is now working with CMS on their 11th Scope of Work
                                                    are
                       for QIOs, and in particular we   working to resolve issues and to communicate guidance related to
                       nursing home reporting of adverse events.

                   We look forward to following up with yoU: regarding our activities related to the above
                   recommendations, as well as to collaborating as appropriate with our colleagues at CMS.
                   We believe that your previous reports on adverse events in hospitalized Medicare patients have
                   provided valuable information to the public and to Federal and private-sector healthcare leaders. This
                   report promises to do the same by addressing a new and especially vulnerable patient population.

                   If you or yout staff has any questions, please feel free to contact Dr. Bill Munier, Director, Center for
                   Quality Improvement and Patient Safety at William.munier@ahrq.hhs.gov or 301-427-1921




                                                                                     /S/
                                                                                Richard Kronick, Ph.D.




                   Attachment




                                                                                                                               I




 ...   .....   .   .                                       ...




Adverse Events in Skilled Nursing Facilities: National incidence Among Medicare Beneficiaries (OEI-06-11-00370)                60
Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   61
Agency Comments: CMS


   .~·~·~
  (, r_ 	       DEPARTMENT OF HEALTII & HUMAN SERVICES                                  Centers lor Medicare & Medicaid Services


    5                                                                                   Administrator
                                                                                       Washington, DC 20201




              DATE:            DEC Z3 2013
              TO: 	         Daniel R. Levinson
                            Inspector General

              FROM: 	       Ma~     l'lwenner
                                                /S/
                             Administrator

              SUBJECT: 	 Office oflnspector General (OIG) Draft Report: "Adverse Events in Skilled Nursing
                         Facilities: National Incidence among Medicare Beneficiaries" (OEI-06-11-00370)

              The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
              comment on the above subject OIG draft report. This is another study in a series of remarkable
              OIG reports on adverse events. Through a significant investment in original research generating
              new information not otherwise available, each such report has made important contributions to
              our understanding of the nature and prevalence of adverse events in hospitals and nursing homes.
              01G objectives for this report were to--(1) Estimate the national incidence of adverse and
              temporary harm events for Medicare beneficiaries in skilled nursing facility (SNF) post-acute
              care; (2) Assess the extent to which adverse and temporary harm events were preventable and
              identify factors contributing to these events; and (3) Estimate the costs associated with adverse
              and temporary harm events to the Medicare program.

              CMS fully concurs with OIG on the importance of identifying avoidable adverse events among
              nursing home residents and improving the quality of life and care for nursing home residents.
              OIG recommendations and CMS responses to those recommendations are discussed below.

              OIG Recommendation

              The OIG recommends that AHRQ and CMS should raise awareness of adverse events in post­
              acute care and seek to reduce harm to nursing home residents through methods used to promote
              hospital safety.

              CMS Response

              The CMS concurs with this recommendation. We agree that helping nursing homes to have a
              better understanding of adverse events and an awareness ofthe preventable events that often lead
              to resident harm could reduce preventable i~ury and harm to residents. We also agree that
              reviewing those methods for promoting hospital safety would be valuable in the development of
              nursing home information. Section 6102 (c) of the Affordable Care Act also established specific
              requirements for nursing homes to develop Quality Assessment and Performance Improvement
              (QAPI) activities, and required CMS to develop technical assistance materials in advance of a
              new QAPI regulation to help establish standards and distribute best practices for meeting these
              standards. CMS launched the nursing home QAPI website in summer of2013




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)                    62
Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   63
Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   64
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Kevin K. Golladay,
                   Regional Inspector General for Evaluation and Inspections in the Dallas
                   regional office; Ruth Ann Dorrill, Deputy Regional Inspector General; and
                   Blaine Collins, Deputy Regional Inspector General.
                   Jeremy Moore served as the team leader for this study. Other principal
                   Office of Evaluation and Inspections staff from the Dallas regional office
                   who contributed to the report include Maria Balderas and Nathan Dong.
                   Central office staff who provided support include Heather Barton, Mandy
                   Waltz Brooks, Kevin Farber, Althea Hosein, Sandy Khoury, Berivan
                   Demir Neubert, and Diane Reinke.




Adverse Events in Skilled Nursing Facilities: National Incidence Among Medicare Beneficiaries (OEI-06-11-00370)   65
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.

  
